<html>
<title> - THE TRUMP ADMINISTRATION'S FY2021 FOREIGN ASSISTANCE BUDGET REQUEST</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


  THE TRUMP ADMINISTRATION'S FY2021 FOREIGN ASSISTANCE BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2020

                               __________

                           Serial No. 116-112

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov                      
                       
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-947PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                      
                       
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             
                                     
                Jason Steinbaum, Democrat Staff Director
               Brendan Shields, Republican Staff Director               
                       
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Barsa, John, Acting Administrator of the U.S. Agency for 
  International Development......................................     7

                                APPENDIX

Hearing Notice...................................................    62
Hearing Minutes..................................................    63
Hearing Attendance...............................................    64

                        STATEMENT FOR THE RECORD

Statement for the record submitted from Represtative Connolly....    65

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from 
  Representative Engel...........................................    67
Responses to questions submitted for the record from 
  Representative Sires...........................................   114
Responses to questions submitted for the record from 
  Representative Cicilline.......................................   118
Responses to questions submitted for the record from 
  Representative Phillips........................................   133
Responses to questions submitted for the record from 
  Representative Omar............................................   137
Responses to questions submitted for the record from 
  Representative Spanberger......................................   140
Responses to questions submitted for the record from 
  Representative Malinowski......................................   149

 
  THE TRUMP ADMINISTRATION'S FY2021 FOREIGN ASSISTANCE BUDGET REQUEST

                        Thursday, July 23, 2020

                           House of Representatives
                       Committee on Foreign Affairs
                                                     Washington, DC

    The committee met, pursuant to notice, at 9:40 a.m., in 
room 2172 Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Mr. Engel. The Committee on Foreign Affairs will come to 
order. Without objection, the chair is authorized to declare a 
recess of the committee at any point. And all members will have 
5 days to submit statements, extraneous material, and questions 
for the record subject to the length limitation in the rules. 
To insert something into the record, please have your staff 
email the previously circulated address or contact full 
committee staff.
    As a reminder to members, staff, and others physically 
present in this room, per guidance from the Office of Attending 
Physician, masks must be worn at all times during today's 
proceedings except when a member is speaking in a microphone. 
Please also sanitize your seating area. The chair views these 
measures as a safety issue and therefore an important matter of 
order and decorum for this proceeding.
    For members participating remotely, please keep your video 
function on at all times, even when you are not recognized by 
the chair. Members are responsible for muting and unmuting 
themselves, and please remember to mute yourself after you 
finish speaking. Consistent with House Resolution 965 and the 
accompanying regulations, staff will only mute members and 
witnesses as appropriate, when they are not under recognition, 
to eliminate background noise.
    I see that we have a quorum and I now recognize myself for 
opening remarks.
    Mr. Barsa, welcome. I am glad that you are here and that 
you realize it is important to appear before Congress and 
answer questions. We have had some difficulty getting 
Administration people to appear before Congress, so your being 
here is really appreciated. Somebody said it was like spotting 
a unicorn.
    Pursuant to notice, the committee is convened today to hear 
testimony on the Trump Administration's foreign assistance 
budget request for the year 2021 fiscal year. Your predecessor 
Administrator Green and I did not agree on everything, but he 
did a good and serious job and I know that he did value the 
importance of foreign assistance as a tool for American foreign 
policy. I really think he was terrific.
    But whatever Mr. Green personally felt, it certainly did 
not align with the Administration's views which we have seen 
again and again in the budgets the Administration has sent up 
to Congress. A budget request is a lot more than numbers on a 
page. It is a statement of values and priorities.
    And the Administration's values and priorities say that we 
should cut our international affairs budget by roughly a 
quarter. That we should cut funding for global health. That we 
should cut food aid. That we should cut democracy assistance. 
Frankly, it is almost what we have come to expect. And after 
three and a half exhausting years, we have all heard the 
Administration's message loud and clear, and the message seems 
to be we do not care.
    We do not care about the good that our development efforts 
do all around the world. We do not care about the people and 
the communities that benefit from this work. We do not care 
about the harm done to American leadership when we pull back 
from the global stage. We do not care about the people who work 
at USAID. And we do not care about Congress which has 
resoundingly rejected every budget that the White House has 
sent up and which we will again. We get it. This starts at the 
top and we all understand the President.
    One of the reasons I think foreign assistance is so 
important is that it is a reflection of our country's 
compassion and generosity, the character of America that is at 
the heart of our foreign policy when we are at our best. 
Apparently, the President does not think that way. He does not 
look back on things like Lend-Lease, the Marshall Plan, the 
Berlin Airlift, or PEPFAR as the hallmarks of strong global 
leadership.
    This is a President who praised the Chinese Government's 
tactics after Tiananmen, who writes off most of a continent 
using a term that I will not repeat here. Praising the Chinese 
Government's tactics after Tiananmen, it is really, really off 
base. So, unfortunately, we know what to expect. We know to 
expect a 50 percent cut to family planning because the 
Administration's crusade against women's health says it is 
better for women and girls to die rather than have access to 
reproductive services. We know to expect reduced assistance to 
Central America because the Administration has an anti-
immigrant agenda that says we should scapegoat desperate people 
rather than get at the root causes of migration.
    But what is especially galling about this year's budget 
that was sent to us is that even in the middle of a global 
pandemic, one that has come at the cost of nearly 150,000 
American lives, the Administration wants to still slash funding 
for global health efforts. The slight increase requested for 
global health security is good, but it is overshadowed by 
massive proposed cuts elsewhere.
    Taken with the Administration's withdrawal from the World 
Health Organization, which despite its flaws, I believe, is the 
international body best equipped to coordinate a global 
response to COVID-19, it is almost as though we are waving the 
white flag.
    So, Mr. Barsa, I am afraid you are a nice guy, but you are 
going to run into a little bit of skepticism today as you try 
to make the case for this erosion of our foreign assistance 
budget. I think we are also going to need answers from you 
about a number of troubling management decisions that you have 
apparently made since taking over for Administrator Green. So I 
will soon recognize you for 5 minutes to summarize your opening 
statement, pending which I will yield to our ranking member, 
the gentleman from Texas, Mr. McCaul, for any opening remarks 
he has.
    Mr. McCaul. Thank you, Mr. Chairman, for calling this 
important hearing.
    Acting Administrator, I should say, Barsa, it is good to 
see you again. Thanks for being here. I want to start out by 
thanking you and your team and your partners in the field. 
Especially amidst this global pandemic, the tireless work of 
the men and women of USAID to save lives around the world is 
critical.
    The United States continues to be the global leader in 
foreign assistance spending, supporting economic, and providing 
food, shelter, and health resources for the most vulnerable 
populations. This vital work continues as the world grapples 
with the COVID-19 pandemic. So far, the United States has 
provided 1.5 billion to over 120 countries to control the 
spread of this deadly disease. This commitment builds on over 
two decades of U.S. investments of 140 billion in responding to 
infectious disease outbreaks and strengthening health systems.
    The President's Fiscal Year 2021 USAID request 
appropriately prioritizes funding to key policy priorities. 
This includes implementation of the Administration's Indo-
Pacific strategy; resources to counter malign activity and 
disinformation campaigns of China, Russia, and Iran; support 
for our allies and our partners in the Middle East; support for 
interim President Guaido and democracy in Venezuela as well as 
countries supporting Venezuelan refugees; prioritizes funding 
for the United States International Development Finance 
Corporation which provides a critical alternative to China's 
predatory lending to developing countries; and it also advances 
WGDP initiative to promote women's empowerment and economic 
opportunity, which I strongly support.
    Unfortunately, the request also cuts key global health and 
humanitarian assistance resources. Globally, almost 80 million 
people are currently displaced around the world. That number is 
expected to rise because of COVID. The World Food Program is 
estimating that 270 million people will need urgent food 
assistance due to COVID-19, an 82 percent increase from last 
year. And COVID-19 is already erasing hard-fought gains to 
reduce extreme poverty and combat HIV/AIDS, malaria, and other 
infectious diseases.
    As expected, authoritarian regimes and terrorist 
organizations are looking to exploit this chaos for strategic 
gain, such as in areas like the Sahel. So as the disease 
spreads in the Middle East, Latin America, and across Africa, 
existing economic hardships, political challenges, and 
humanitarian emergencies will worsen. In other words, it is now 
not the time to cut this key aid. I am deeply concerned the 
impacts of COVID-19 will push more fragile States into 
conflict.
    Our assistance must prioritize prevention and further 
destabilization in addition to the long-term impacts including 
on education assistance, food security, and vaccine 
distribution. This global pandemic continues to spread and the 
work that we do overseas makes us safer here at home. And as I 
have said before, successful diplomacy and development is cost 
effective. Fully funding our foreign assistance programs will 
ultimately save taxpayer dollars.
    With today's growing fiscal challenges, we must double our 
efforts to ensure that every dollar spent is strategic in 
advancing U.S. interests. So I look forward to hearing from how 
our assistance will be used to push back on China's malign 
influence and mitigate the impacts of COVID-19 and ensure 
continued U.S. leadership around the world.
    With that, Mr. Chairman, I yield back.
    Mr. Engel. Thank you. Thank you. I thank my friend. I agree 
with his testimony and I think it is very important the points 
that were made by both the Chairman and the Ranking Member.
    So our witness this morning, Mr. Barsa, John Barsa, the 
Acting Administrator of the United States Agency for 
International Development--Mr. Barsa, we are happy to have you 
here and you are recognized for 5 minutes.

   STATEMENT OF JOHN BARSA, ACTING ADMINISTRATOR OF THE U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Barsa. Thank you, Mr. Chairman.
    Chairman Engel, Ranking Member McCaul, and members of the 
committee, thank you for inviting me to testify today. It is an 
honor and privilege to testify in front of the committee and I 
look forward to your questions. I would also like to thank you 
for your bipartisan support which has allowed the U.S. Agency 
for International Development, USAID, to mount the robust 
response to the unprecedented COVID-19 pandemic that has 
touched nearly every person around the world both at home and 
overseas.
    The United States must continue an aggressive, 
comprehensive response that expands health, humanitarian 
assistance, and addresses the ongoing second order effects such 
as food security, economic growth, and preventing democratic 
backsliding. I am committed to doing so using all available 
resources, whether current year or future supplemental, and not 
let any opportunities rise for our adversaries to fill the 
vacuum in a turbulent world.
    Every day, USAID's highly professional and dedicated staff 
work to deliver development solutions and build self-reliance 
in partner countries, project American values globally, and 
advance our foreign policy and national security objectives. 
The President's budget request for Fiscal Year 2021 for 
accounts that USAID fully and partially manages is 
approximately $19.6 billion, including $2.1 billion for USAID 
global health programs and $5.9 billion for the Economic 
Support and Development or ESDF fund.
    USAID will use these resources to advance U.S. foreign 
policy objectives by fostering stability in partner countries, 
promoting free, fair, and equitable societies, and expanding 
opportunities for American businesses. Our investments will 
also strengthen our national security by addressing the drivers 
of violent extremism and combating the spread of infectious 
diseases, each of which represents a potential threat to the 
homeland.
    Faced with COVID-19, America is demonstrating clear and 
decisive leadership. The United States has mobilized to combat 
the virus both at home and abroad by committing more than $12 
billion for the response to this pandemic. USAID has acted 
decisively since COVID-19 cases first began to rise 
internationally, working with the U.S. Departments of Defense, 
Health and Human Services, and State as part of an all-of-
America response.
    With $2.4 billion in emergency supplemental funding 
generously appropriated by Congress including nearly $1.6 
billion for foreign assistance implemented by USAID and the 
State Department, we are providing health care, humanitarian 
assistance, and economic security and stabilization efforts 
worldwide. This funding is saving lives by improving public 
health education, training healthcare workers, strengthening 
laboratory systems, supporting disease surveillance, and 
boosting rapid response capacity in more than 120 countries 
around the world.
    We are providing assistance to support communities and 
equip them with the tools needed to mitigate the impact of the 
virus. The U.S. response to COVID-19 builds upon decades of 
American investments in global health. In the 21st century 
alone, the United States has contributed more than $140 billion 
in global health assistance.
    Over the past 20 years, USAID's funding has helped Gavi, 
the Vaccine Alliance, vaccinate more than 760 million children, 
which has prevented 13 million deaths. Last month, the United 
States committed $1.16 billion to Gavi over the next 4 years, 
with the goal to immunize 300 million additional children by 
2025.
    The U.S. President's Malaria Initiative, PMI, has helped 
save more than seven million lives and prevent more than one 
billion malaria cases worldwide since 2000. America has 
invested more than $85 billion to fight HIV/AIDS through 
PEPFAR, the largest commitment by any nation to address a 
single disease in history. PEPFAR has saved millions of lives 
in Africa. USAID continues to invest in global health security 
to address existing and emerging zoonotic diseases, which 
account for more than 70 percent of new infectious disease 
outbreaks. We invested $1.1 billion in this critical area since 
2009.
    Even as last month, we declared an end to the tenth Ebola 
outbreak that has affected the eastern Democratic Republic of 
Congo since August 2018. We are now scaling up a response to 
fight the confirmed eleventh outbreak in northwestern DRC. 
These investments in global health throughout the decades have 
enabled partner countries to strengthen health systems and 
democratic institutions, enabling them to better respond to 
global health crises.
    We are in unprecedented times with the rapidly evolving 
situation on the ground in almost every country. We are working 
aggressively to obligate all of our resources for COVID-19 as 
swiftly and effectively as possible. At the same time, we want 
to ensure that we are accountable for the effective use of 
funds for COVID-19 and are good stewards of taxpayer dollars.
    As we consider how to prevent the next health crisis, we 
have to address the root causes of these outbreaks. I remain 
focused on USAID's efforts on helping partner countries on 
their journeys to self-reliance and will continue to build on 
the vision that each one of our programs should look forward to 
the day when it can end. Our investments in global health 
throughout the decades are a cornerstone to this approach.
    We have learned that outbreaks and epidemics are often 
exacerbated by failures of governance and transparency and when 
we do not address poor governance and conflict, we wipe out 
investments in health, education, and other basic social 
services. We also recognize that health emergencies have 
consequences that can rapidly require broader development 
assistance whether support for orphaned children, protection 
against sexual exploitation and abuse, livelihoods, and 
addressing the deeper root causes of instability and 
governance.
    While a hallmark of our journey to self-reliance effort is 
using analytics to measure progress, we must also measure 
regression to see how we may need to adjust our programs. 
Looking long term, we remain committed to helping communities 
in our partner countries through this pandemic and its second 
and third order effects. The COVID-19 pandemic is not simply a 
health crisis and our response cannot be just a health 
response. We must use the totality of development tools at our 
disposal as well.
    To focus on how to best operate in the COVID-altered world, 
I established a temporary agency planning cell, an executive 
steering committee called Over the Horizon to guide the effort. 
While the USAID COVID-19 Task Force manages near-term 
challenges rising from the pandemic, the Over Horizon team will 
perform research, conduct outreach and prepare analyses around 
key strategic questions to help USAID prepare for lasting 
challenges to the developmental and humanitarian landscape in 
the medium to long term. It will then provide this information 
to the executive steering committee composed of senior leaders 
from across the agency who will craft recommendations for my 
consideration.
    We are already planning for the medium and long-term 
impacts of COVID-19 and because I am committed to make sure 
that USAID will remain a trusted partner, the preferred 
partner, in countries across the world. Again, I thank you for 
this opportunity to testify before you and I look forward to 
your questions.
    [The prepared statement of Mr. Barsa follows:]

    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Engel. Thank you very much for your testimony. Let me 
say this. Over the past several years, this Administration has 
attempted several rescissions and other methods of slowing down 
or stopping foreign assistance spending. As a result, we have 
seen funding obligated in fits and starts with a scramble at 
the end of the fiscal year. We saw this again with the slow 
disbursement of the COVID supplemental funding hampered by 
policy indecision and extra layers of bureaucracy.
    The Foreign Affairs Committee has strongly objected to 
these tactics in the past and fully expects the resources 
provided by Congress to be fully utilized in the manner for 
which they were provided. So, Mr. Barsa, let me ask you this. 
How much of USAID's expiring funds have been obligated to date?
    Mr. Barsa. Congressman, I do not have the exact figure in 
terms of the number of funds to date, but I know we are making 
good progress and we certainly expect to have all of our 
expiring funds obligated by the end of the fiscal year.
    Mr. Engel. Well, let me say this then. Do you commit to 
obligating all expiring funding as well as current supplemental 
COVID moneys before the end of the fiscal year?
    Mr. Barsa. Certainly that is the goal. That is the 
direction given to my staff and I look forward to working 
closely with you and your staff to keep you apprised regularly 
as to the progress we are making toward the goal.
    Mr. Engel. Thank you. If Congress provides additional COVID 
supplemental funding, how will you ensure that the money will 
get out the door where it is urgently needed?
    Mr. Barsa. Certainly, we have had a--this has been a 
learning process. This pandemic just has affected the entire 
world, so I am happy to say that as a learning organization we 
have improved our processes for getting money out the door 
expeditiously, so we are very grateful for the Congress's 
generosity with the past supplementals. Should there be another 
supplemental, I am very confident that we have the systems in 
place to get money out expeditiously and in a responsible 
manner.
    Mr. Engel. Well, thank you. As I alluded to in my opening 
statement, there have been several recent management decisions 
under your leadership at USAID and some of those are very 
troubling to myself and some of my colleagues. The recent 
influx of appointees serving your Agency has a record of 
homophobic, anti-immigrant, Islamophobic, and other derogatory 
comments appears to be in direct contradiction to the Agency's 
aims and an affront to the dedicated career staff who serve at 
USAID.
    So is this the kind of person you want representing USAID 
and the American people? What message are we sending to USAID 
employees by allowing appointees like Merritt Corrigan who has 
referred to a ``homo-empire,'' and the ``false pretense of 
women's equality with men?'' Those are obviously troubling to 
us. I hope it is troubling to you and I hope that that is not 
allowed to continue.
    Mr. Barsa. Congressman, what I can commit to you and your 
colleagues on the committee is that all USAID employees 
regardless of hiring category are held to the same high moral, 
legal, and ethical standards that USAID has always had in 
place.
    Mr. Engel. Okay, thank you. I now turn it over to our 
ranking member, my friend Mr. McCaul.
    Mr. McCaul. Thank you, Administrator. The Consulate in 
Houston just got closed yesterday, and the Chinese Communist 
Party has been doing this for decades. They have been stealing 
intellectual property. They are currently trying to steal the 
research and development for our vaccine for COVID-19, a virus 
that they are responsible for coming out of Wuhan, China and 
now they want to steal our vaccine to save the world. The irony 
is just mind boggling.
    They are a force to be reckoned with and I think if 
anything comes out of this experience, this twilight zone 
experience we are going through, it is the people are waking up 
to who the Chinese Communist Party are and what they have done 
to the world and what they have done to us for the last two 
decades.
    Now your Agency has role in this. I want to commend my dear 
friend, I wish he was staying with us, Mr. Yoho, for his 
probably one of the best bills ever passed out of this 
committee, the BUILD Act, and the Development Finance 
Corporation, which is going to be our key to defeating the 
Chinese Communist Party in its Belt and Road Initiative in 
developing nations.
    And so my question to you is--I think the DFC has a major 
role. I think Adam Boehler is doing a great job. I do think 
Congress should fully fund the DFC. The DFC, after all, does 
return on its investment. It is one of those departments or 
agencies that actually does not spend all the money, actually, 
money comes back to the Treasury. I mean that is--how about 
that?
    So my question to you is, I see USAID and there are other 
entities like EXIM Bank, but can you explain to me how you can 
transform your Agency to work more effectively in this 
countering Chinese Communist Party initiative that the DFC is 
taking on right now?
    Mr. Barsa. Thank you, Congressman. Certainly, all of us 
when we come to whatever positions we have, we bring our 
previous experiences. So, certainly, I came to USAID from the 
Department of Homeland Security where I certainly had plenty of 
exposure to malicious, malevolent Chinese intent in any number 
of spheres. So coming over to USAID initially heading up the 
Latin American Caribbean Bureau, I, you know, certainly saw 
firsthand how, you know the Chinese were trying to exert their 
influence with debt diplomacy, onerous deals where they are 
taking advantage.
    So their businesses, I mean there cannot be a greater 
contrast in terms of our development roles. We have what is 
sincerely a construct called the Journey to Self-Reliance. We 
help countries stand up on their own with their economies, 
democracies, and their systems, but the Chinese model 
development could not be more of an opposite.
    We seek to set up and emphasize free, open enterprise-
driven development to build resilient market economies founded 
on democratic principles and good government. Certainly, the 
Chinese, you know, their efforts to undermine sovereignty 
leading to unsustainable debt or forfeitures of strategic 
resources and assets, it could not be further from the truth.
    So I agree with you. The BUILD Act has been an incredible 
piece of legislation. I want to thank you all for your support 
of that. Adam Boehler and I, who, Adam, of course, leading the 
DFC, he and I communicate regularly. As you all know, I sit on 
the board of DFC. So one of the things Adam and I have been 
able to do is ensure that we have communications at all levels 
between USAID and the DFC. So not only is their communication 
at the leadership level in Washington, DC and, more 
importantly, in the field, we are working closely together.
    So USAID staff in the missions, in the field, are uniquely 
positioned to be able to find potential deals, potential 
private sector partners. By having that close coordination and 
communication with the DFC, we are able to bring these 
potential deals and opportunities to the DFC's attention where 
they can come in and help finance the deals.
    So I am happy to say that the relationship between USAID 
and DFC is very strong and looking forward to continued 
cooperation in years to come.
    Sorry, do you have a question?
    Mr. McCaul. No, go ahead.
    Mr. Barsa. No. As I say, one of the best ways to counter 
China is to continue to do what we do. We have no better 
development model. Our efforts to help countries stand up on 
their own on the journey to self-reliance is vastly different 
from the Chinese model. So we are very proud to provide this 
alternative to countries and we are very proud of our work 
countering China and we will continue to do so.
    Mr. McCaul. Well, I want to thank you for that. And thank 
you for your service at the Department of Homeland Security. 
And also it is exactly what I wanted to hear, you know, I mean 
working together, coordinating together, there is a lot of 
overlap between these two entities, I think, and the more you 
can coordinate and work together, not just to provide foreign 
assistance and humanitarian, which is vitally important for the 
Nation and the world, but also in this very important foreign 
policy that we are embarking on to counter this malign behavior 
from the Chinese Communist Party.
    So, sir, let me just say thank you for that and I look 
forward to following up with you. I yield back.
    Mr. Engel. Thank you. Mr. Barsa, I hope you take back some 
of the criticisms and problems that we have with what was 
submitted. I hope you take it back and I hope we can have 
productive discussions on how to improve it. We met with Mr. 
Green all the time and came up with putting our heads together 
and coming up with good things that are needed, so I hope we 
can establish that with you as well.
    I will now recognize members for questions under the 5-
minute rule. Under House rules, all time yielded is for the 
purpose of questioning the witness. Because of the hybrid 
format of this hearing, I will recognize members by committee 
seniority, alternating between Democrats and Republicans. If 
you miss your turn, please let our staff know and we will come 
back to you. If you seek recognition, you must unmute your 
microphone and address the chair verbally.
    I will begin by recognizing myself for 5 minutes.
    Okay, we will go to Mr. Sherman.
    Mr. Sherman. Thank you. Listening to the first three 
speakers, it is surprising to see the Administration cutting 
our foreign assistance budget. I think the Chairman and the 
Ranking Member were eloquent as to why we need to expand what 
we spend to help the developing world, and the Acting 
Administrator explained how the money that we do spend is spent 
effectively. Yet the Administration seems hell--bent on cutting 
this aid at a time of pandemic which is taking lives around the 
world and at a time when the disruption caused by the pandemic 
is leading to hunger, food insecurity, and debt, and at a time 
when this cutback is going to increase the influence of our 
geopolitical rival.
    The particular cut that is being suggested is a 35 percent 
cut from what we appropriated last year. Down to 627 is what 
the Administration suggests, rather than the 9.5 billion we 
actually appropriated and this continues a trend. It would put 
our aid at less than one-tenth of 1 percent of our GDP at a 
time when there is general acceptance in the international 
community that nations should strive to spend seven-tenths of a 
percent, and many countries are above that, and when the 
average for wealthy nations is 0.4 percent.
    So I wonder if the Acting Administrator can explain what--
how would you explain to our men and women in uniform that they 
may be deployed, they may die in future crises that could have 
been avoided with expenditures far lower than what we spend in 
defense and war? How do we explain this Administration's cuts?
    Mr. Barsa. Congressman, as you know, the budget you have 
before you today was developed over a long period of time, 
certainly started out long before the outset of the global 
pandemic. And as you are aware, certainly----
    Mr. Sherman. If I can interrupt you then.
    Mr. Barsa. Certainly.
    Mr. Sherman. Then since the pandemic has arrived and 
Democrats have proposed substantial additional assistance in 
the supplemental appropriations bill, are you a strong advocate 
for that supplemental appropriation knowing that the original 
budget that you put together was before the pandemic?
    Mr. Barsa. Certainly. We are in touch with OMB and State 
Department on a daily basis.
    Mr. Sherman. How much should we have in supplemental 
appropriations for international development aid and 
assistance?
    Mr. Barsa. OMB and the White House are fully apprised on 
the challenges we are seeing on a day-to-day basis.
    Mr. Sherman. I need a number.
    Mr. Barsa. I do not have a number for you, sir. That number 
you seek is part of a larger deliberation with OMB and the 
White House. It is part of a much larger package.
    Mr. Sherman. Can I count on you and the Administration to 
advocate for a robust number?
    Mr. Barsa. You can absolutely count on me to advocate for 
what I believe are our needs.
    Mr. Sherman. Okay. In May, our colleague Ami Bera joined 
with--introduced, many of us cosponsored, the bill to 
participate in the Coalition for Epidemic Preparedness 
Innovations, the CEPI, an alliance of countries and private 
partners whose mission it is finance and coordinate the 
development of vaccines for high priority.
    The Administration has talked of discontinuing the PREDICT 
2 program and moving to something else that seems ill-defined. 
Are we going--do you support CEPI? Do we continue PREDICT 2? 
And if we are not continuing PREDICT 2, what is the successor 
program?
    Mr. Barsa. Okay, regarding CEPI, we certainly recognize 
there is an opportunity to leverage Coalition for Epidemic 
Preparedness Innovation, CEPI, their mandate to develop 
vaccines. Their goals certainly align with the objectives of 
USAID's global health security program to prevent the 
amplification and spread of emerging threats. So we are 
currently looking at potential partnership with CEPI. I have 
nothing to announce today, but we are having internal 
discussions about possible partnerships with them.
    Regarding the PREDICT project, the PREDICT project was--had 
a normal life span to it, so it was extended past its normal 
termination date. So what we have is a follow-on project called 
Stop Spillover which is a natural follow-on to that. So.
    Mr. Sherman. Okay, so you do have a successor program.
    Mr. Barsa. We do.
    Mr. Sherman. I do want to ask, your predecessor stated on 
the record that USAID is committed to the clearance of land 
mines and unexploded ordnance in Artsakh or Nagorno Karabakh. 
Do you continue that dedication?
    Mr. Barsa. Oh. Certainly, Mark Green, the predecessor's, 
dedication was well-founded. Happy to have received reports 
that we have almost had diminishing returns in terms of huge 
success rates in terms of the amount of work that has been 
cleared to date.
    Mr. Sherman. We still need to finish the job.
    I yield back.
    Mr. Engel. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Mr. Barsa. Thank you, Administrator Barsa, for your 
testimony. I thank you for the work you are doing on COVID-19. 
You know, Congress in a bipartisan way came together and 
provided substantial new money to combat this insidious 
disease. My own state of New Jersey certainly has had its 
disproportionality in terms of death and sickness. Half of all 
of those who have died in my State were in nursing homes, so 
hopefully there are some lessons learned there for all of us 
going forward. But again, thank you for your leadership on 
that.
    I would like to bring up two issues, the first is the Ebola 
issue. I remember I chaired four hearings on the Ebola outbreak 
in Sierra Leone and Liberia. We all came together and we came 
up with significant amounts of money to combat that horrible 
manifestation of that disease. Likewise, that is happening 
again and I know we have spent $342 million at USAID on the 
Ebola issue and I want to thank you for that.
    And unlike Liberia and Sierra Leone, the DR Congo 
experience, there are now therapeutics. There is a vaccine that 
helps to protect our healthcare workers and, of course, other 
people. On June 25th, the Minister of Health for DRC declared 
the end of the Ebola outbreak in eastern DRC. It has affected 
3,470 confirmed cases, about 2,287 related deaths.
    But as you pointed out, there is a concern about a new 
outbreak. Maybe you could speak to that because vigilance, 
obviously, needs to be very robust. And again, thank you for 
the deployment. It is a story that has not been told by the 
media or anybody else that there have been vaccinations. I 
remember we had the doctor from Samaritan's Purse after he 
healed having gone to Texas come and testify at my hearing. He 
was one of the lucky ones who survived.
    So many others, obviously, succumbed to death. But all 
those lessons learned from that horrible experience have now 
been applied and our government under both Administrations, the 
previous and this one, continue to work hard to find 
therapeutics and vaccines. So you might want to speak to that.
    Second, on the Desert Locust crisis, I have introduced a 
bill joined by my good friend and colleague from California 
that frankly sets up a working group to try to be proactive on 
this locust problem. Obviously, it is a--Ms. Bass, who is our 
chairwoman; I am the ranking member of the Africa Committee. We 
have made it clear that we really want a forward thinking--this 
is not the last time the potential of a crisis here exists, you 
know, we are going to see it again and again. So this working 
group would come up with best practices on eradication 
hopefully on killing these bugs before they ravish the crops.
    And on the food insecurity issue, FAO and others have all 
pointed to a looming crisis, but I still do not think we have 
done enough. I am not saying you, but I think as a world we 
have put $20 million into the effort, but perhaps you could 
speak to that as well because you and I have talked so many 
times over the last 5 months. Kip Tom, who is our Ambassador to 
the U.N. food agencies, I have talked to him several times as 
well.
    This idea of a new bill, and thankfully the chairman is 
putting it on the docket for next week, would create a working 
group that would really, hopefully, be forward thinking and do 
even more to mitigate this crisis.
    Mr. Barsa.
    Mr. Barsa. Thank you, Congressman. Thank you for your 
longtime support of USAID. It truly is the honor and privilege 
of a lifetime to lead the talented men and women of USAID, 
specifically when you see how for the Ebola, for our disaster 
assistance response teams, the way they deploy into the face of 
whatever crisis, and for, as you mentioned, Ebola, the 
herculean efforts in combating Ebola.
    You know, we are so happy to see that, you know, while the 
outbreak in eastern DRC, you know, has ended, we remain very 
concerned and vigilant. We are monitoring nearly 1,200 Ebola 
survivors in the east DRC. We are monitoring the new outbreak 
in the northwest DRC. And we are always on the lookout--we are 
cognizant of the constant threats of new Ebola outbreaks 
occurring not just in the DRC, but other African countries as 
well.
    So one of the things we are able to do is as the outbreak 
was coming to end in the east, we were able to pivot resources 
and redeploy staff and equipment to deal with the outbreak. So 
watching that, watching the professionalism of the men and 
women that are able to do that, it is a great source of pride 
for me. And, certainly, I have learned a lot since becoming 
Acting Administrator of USAID, and part of what I have learned 
is the life cycle of a locust.
    Certainly, with the economic contraction of the pandemic, 
food insecurity is very much on my mind particularly in Africa. 
So one of the things I have learned, so certainly while aerial 
spraying is the preferred method to treat infestations, it has 
to occur in certain periods of the life cycle after the locusts 
hatch but before they grow wings. So what is key then is 
monitoring to ensure that the available aircraft with 
pesticides can deploy during that window.
    So it has been challenging to maintain monitoring with the 
pandemic and some rains that are occurring right now, but we 
are adding additional resources to the monitoring to ensure 
that our partners at the U.N. Food and Agricultural 
Organization, FAO, can deploy aircraft and pesticides to meet 
and get to the locusts during that crucial period when they are 
most vulnerable to eradication.
    Mr. Smith. Thank you so very much.
    Chairman.
    Mr. Engel. Thank you.
    Okay, we are now going to call on Mr. Meeks who is coming 
here--he is not here, but he is going to come----
    Mr. Meeks. I am here though.
    Mr. Engel. I know. All New Yorkers are always here, so.
    Mr. Meeks. But thank you, Mr. Chairman. Let me first echo 
your concern about the appointment of Ms. Corrigan given the 
record of statements and I believe bigoted comments that she 
has made, and there should not be any tolerance for that at 
USAID or anyone that is heading an Agency such as that. So I 
want to, you know, first say that I strongly support your 
comments earlier.
    And it is particularly important because most of us, just 
about all of us in the U.S. Congress this week are very heavy 
hearted and have a very heavy heart today with the passing of a 
great American and a true humanitarian, Congressman John Robert 
Lewis. And, annually, Representative Lewis and I, along with 
Representative Hastings, have proposed language to the State 
and foreign operations appropriations bill supporting efforts 
to foster diversity and inclusion in international affairs and 
provide protections for minority and indigenous populations 
abroad, so this year is no different. And in my estimation, 
there is no greater way to honor and continue Representative 
Lewis's legacy than by bolstering diversity and inclusion 
initiatives here in the United States and abroad.
    I am going to have probably more questions than I expect to 
be able to, Ambassador Barsa, you will be able to answer, so I 
am going to try to ask them quickly. But maybe before or also 
afterwards, or I should say afterwards, you will give me some 
answers in writing if I cannot get to all of them. So let me 
also state that I want to reflect to the record that I believe 
that the Administration's requested budget cuts to humanitarian 
accounts are the wrong thing to do morally and it also 
absolutely sends the wrong message to the world.
    So my first question, Mr. Ambassador, is do you agree that 
upholding diversity and inclusion while allocating and 
distributing U.S. foreign assistance is in our national 
interest? Do you agree with that?
    Mr. Engel. Microphone.
    Mr. Barsa. I am sorry. Yes, I very much value diversity and 
inclusion. Yes.
    Mr. Meeks. So therefore there should be accountability in 
that regards, and the first critical step to accountability on 
diversity and inclusion is tracking and reporting granular data 
as it relates to the companies, the organizations that USAID 
contracts with. So does USAID, to date, capture self-reported 
data on the composition of the companies it contracts with as 
it relates to gender, race, ethnicity, or sexual orientation of 
shareholders, the board, and senior management?
    Mr. Barsa. We certainly have the same, the high standards 
for diversity and inclusion of all the work. You are asking 
about the certain mechanics in how we hold our partners 
accountable. I am afraid I do not have that data with me, but I 
am happy to respond to the question for the record or work with 
you and your staff afterwards.
    Mr. Meeks. Very good. I would like to see the data if you 
have it, if it is on record, so that we can see it and know 
what kind of, you know, the number of African Americans that 
are on these various boards, et cetera, the diversity of the 
companies you are working with so that we can see the 
transparency.
    And I would say that it would be a good idea that if you 
have this data that it be published annually for transparency 
and for accountability. And I would also like to work with you 
in regards to being committed to erasing the barriers for 
companies, including, you know, let you know that we are 
working together so that small and minority-owned and 
disadvantaged business enterprises and universities and 
nongovernmental organizations, currently, that many have come 
to me about encountering difficulties navigating the 
acquisitions and assistance process at USAID. So I would love 
to work with you on that end in the future.
    Time is running out quickly. Let me just run this right 
past you. I am concerned, you know, we often talk about 
providing alternative development solutions to Chinese loans in 
Africa. However, the Chinese have effectively mobilized 
billions in loans each year to strategically gain access to 
major ports, railways, and other vital infrastructure and 
markets in Africa. And we have the largest financial markets in 
the world and I believe we can make deep inroads and have a 
greater impact in Africa by USAID, so I would like to talk to 
you in regards to that.
    Also I just want to bring to your attention and ask you 
about, you know, the COVID pandemic has been devastating to 
livelihoods of hundreds of millions in Africa as well as those 
of African descent. Likewise, as we talk about, you know, 
Colombia, you know very well that I have been one of the co-
chairs of the Colombia Caucus and Colombia is one of our 
strongest allies in the Western Hemisphere and I would hope 
that we would have a plan that we are looking at, you know, to 
make sure that African Colombians and indigenous community 
leaders and that we are protecting African Colombians and 
indigenous communities with USAID funds and assistance and 
efforts to protect these individuals.
    I see I am out of time so I yield back. But I look forward 
to talking to you, and if you can answer some of these 
questions in writing afterwards or let's set up a meeting so 
that we can talk about some of these important issues. Thank 
you, Mr. Chairman. I yield back.
    Mr. Engel. Well, thank you, Mr. Meeks.
    I wonder if the witness would like to answer some of those 
questions?
    Mr. Barsa. The witness would like to answer all of the 
questions. Certainly, there were a lot of topics covered there.
    So, Congressman Meeks, certainly, as we have discussed 
before as you may be aware and others may be aware, as a former 
staffer here in the House of Representatives working for a 
former member here, I fully appreciate the role of Congress in 
not just appropriations and authorization, but oversight. So I 
certainly value and I know intuitively the best government is 
government where there is communication. So if I do not get to 
anything right now during my testimony, I look forward to 
getting back with QFRs and continued conversations at any point 
in time.
    So a lot of things were being touched on right there. 
Certainly, and I will try to get them in order. Regarding 
infrastructure investments by the Chinese in Africa, certainly 
as we have discussed before, the partnership between USAID and 
the DFC is key in terms of helping identify other investments 
that we can make. One of the best things we can do to counter 
Chinese influence and Chinese investments is to gather 
information of onerous deals where the Chinese take advantage 
of other countries and their vulnerabilities and share that 
with other host countries so they do not go down the same path 
and allow the Chinese to take advantage of them. So we work on 
the information sharing.
    We also work on alternatives development investment. 
Regarding Afro-Colombians, so as certainly heading up the Latin 
American Caribbean Bureau when I traveled to Colombia it was a 
great honor and privilege to meet with Afro-Colombian leaders 
within Colombia and other groups that have been traditionally 
disenfranchised. And I was proud to see the work USAID does in 
empowering them and helping ensure they are fully integrated 
into the economy and society, so I am pleased with the work 
going on in Colombia. I understand there is more to be done, 
but I am very proud of the steps we have made.
    Congressman, there was another issue. I should have written 
it down. But anything I have not got to I am happy to respond 
to QFRs or followup meetings or phone calls.
    Mr. Engel. Yes, there were a few other questions that Mr. 
Meeks had and so we will followup with you.
    Mr. Barsa. Okay, happy to.
    Mr. Mast. Mr. Chairman, will the chair yield for a 
question?
    Mr. Engel. What? Who is asking?
    Oh. Well, I am about to call on Mr. Chabot because he was 
here.
    Mr. Mast. So no?
    Mr. Engel. Well, I am willing to--Mr. Chabot?
    Mr. Chabot. Go ahead, if it is quick. Yes, go ahead, Brian.
    Mr. Mast. Thank you, Mr. Chabot. It is simply a question. 
Mr. Meeks was looking for diversity numbers.
    Mr. Barsa. Oh.
    Mr. Mast. And I was wondering, is there a metric that Mr. 
Meeks wanted to see met? Not just these numbers out of the 
blue, was there an expectation? Maybe Mr. Meeks could answer 
that later on somebody else's time, but that was the question. 
What number does he want to see met for all of those things 
that he was asking about.
    Mr. Engel. All right. Thank you, Mr. Mast.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman, for holding this 
hearing. And thank you, Mr. Barsa, for being here today and 
answering our questions. A number of us on both sides of the 
aisle have done a lot of work on the Rohingya genocide over the 
years, and I want to particularly recognize somebody who is not 
here or someone that is not in Congress anymore, and that is 
Joe Crowley, who had been very involved in this for a long time 
and I had worked directly with him. I cannot tell you the 
amount of work and how committed he was to this cause. There 
was a lot of other people, but he is not here to pat himself on 
the back, so I will. I mean, he was very committed, and a real 
loss to this institution, I believe.
    So I was hoping that you could update us, Mr. Barsa, kind 
of what is going on. What is the outlook on the intermediate 
long-term for the Rohingya? And how does the Administration's 
budget request reflect efforts to support the Rohingya, as well 
as to hold the Burmese military accountable and alleviate the 
desperation of a million Rohingya refugees who are currently in 
Bangladesh rather than in their own country?
    Mr. Barsa. Thank you, Congressman. Certainly, in 
relationship to our government-to-government contacts, I would 
have to refer you to the State Department. But I am proud to 
report, since August 2017, the United States has provided more 
than $951 million in emergency assistance to assist in the 
Rohingya. This support is to the refugees, the affected host 
communities in Bangladesh, and multiple conflict-affected 
populations within Burma with humanitarian development 
assistance.
    We work with impacted host communities by providing support 
and development assistance. For example, 17 percent of the 
people in Cox's Bazar live below the extreme poverty line which 
is a full 5 percent higher than the rest of the community or 
the rest of the country, and we fully recognize that host 
communities have borne the socioeconomic brunt of the Rohingya 
refugee influx so our efforts go in to support not just the 
refugees themselves, but those host communities who are 
sheltering to give them space.
    So I wish I had an answer as to when this crisis would end, 
but we are doing what we can to support the Rohingya.
    Mr. Chabot. Thank you very much. With all that is going on 
around the globe and in this country, it is easy for us not 
necessarily to remember those people, but there are an awful 
lot of people suffering, so. And I know the Administration is 
committed to improving that and we want to thank you for that.
    I will move to another line. Last year, Congressman 
Connolly and I, in a bipartisan manner, introduced the Global 
Health Security Act, which I am pleased to say was included in 
this year's NDAA, the National Defense Authorization Act, in 
which among other things affirms U.S. commitment to the Global 
Health Security Agenda. Could you discuss how investments made 
under the Global Health Security Agenda have helped member 
countries cope with the latest global health security crisis, 
COVID-19?
    Mr. Barsa. Thank you, Congressman. The United States of 
America and the United States people by extension are the most 
generous people in the history of the world. So our investments 
over decades in global health have enabled countries not just 
to deal with a crisis or an outbreak at hand, but to build 
infrastructure and capacity.
    So we know, for example, clean water is an essential health 
service, and not all the countries have--able to provide clean 
water to all their populations the way they should. So part of 
the larger health investments we make are things like access to 
wash, clean water, and access to sanitation.
    So a country's ability to respond to the pandemic is not 
just, you know, access and availability to PPE. It is the 
infrastructure that has been developed with the assistance of 
USAID over decades to help with detection, with communications, 
with all manner of services. Healthcare responses are best 
built upon an existing infrastructure. And so we are proud to 
be--I am proud to be leading the Agency, you know.
    Mr. Chabot. Thank you.
    Mr. Barsa. Yes.
    Mr. Chabot. Absolutely. And I am trying to get one more 
question in, so I will cut you off there. I apologize.
    But the United States cannot solve every problem. We wish 
we could, but we cannot solve every problem around the globe. 
Could you identify some problems that you took a hard look at 
when crafting this budget and said this is just a problem the 
taxpayers could not or should not have to foot the bill?
    Mr. Barsa. I do not have a specific example, but certainly 
we realize that USAID cannot do it alone. So I am happy to 
report that I have had regular meetings with counterparts in 
the U.K., Canada, to realize that a lot of developmental 
challenges are challenges that the developed world should 
tackle together.
    So, while we are the most generous country in the history 
of the world, the most generous country now in development 
assistance, fully cognizant that not all the stress should be 
borne on our shoulders and that we should be working 
collaboratively with other countries.
    Mr. Chabot. Thank you very much. I appreciate it, and yield 
back, Mr. Chairman.
    Mr. Engel. Thank you, Mr. Chabot. We now go to Mr. Deutch 
of Florida, who is with us virtually. How is the weather down 
there?
    Mr. Deutch. We are doing Okay. Thank you, Mr. Chairman. And 
thanks, Acting Administrator Barsa, for your testimony. We 
appreciate you joining us for this important hearing.
    For nearly 60 years, across both Democratic and Republican 
Administrations, USAID has performed invaluable lifesaving work 
around the world from combating the spread of HIV/AIDS to 
providing access to safe water and family planning to investing 
in nutrition and education. And in an era of unprecedented 
humanitarian catastrophe even before COVID-19, the dollars 
invested in U.S. foreign assistance helped make our country 
safer.
    During the pandemic, the importance of USAID has only 
grown. The supplemental funding for USAID's humanitarian 
accounts is a critical tool in the global pandemic response. As 
chairman of the Middle East Subcommittee, I know how critical 
our aid is to the Middle East and North Africa where over $150 
million provided to MENA countries supports pandemic response 
as well as vulnerable refugee populations.
    But there is more work to do, and now more than ever 
reckless cuts to U.S. foreign assistance only undermine U.S. 
national security and global stability. USAID's importance and 
the importance of U.S. foreign assistance, particularly as we 
are seeing now for global health, is an issue of bipartisan 
agreement. And all of us on this committee, including my 
friends across the aisle, have rejected and will continue to 
reject cuts to USAID's budget that politicize the Agency's 
work, undermine its effectiveness, and threaten global and U.S. 
national security.
    And, Acting Administrator, the bipartisanship is why I must 
join my colleagues in expressing deep concerns about recent 
appointments at the Agency. For the President to knowingly 
appoint people with a history of derogatory comments about 
refugees, LGBTQ people, and women, which also deeply 
contradicts USAID's mission, actually undermines the important 
efforts of USAID around the world.
    Their past statements call into question their ability to 
effectively lead this important Agency and its dedicated work 
force, and I am not so inclined, Acting Administrator Barsa, to 
share your full confidence in these appointees and I would urge 
you to reconsider your support for their appointments.
    Now with my remaining time, I would like to ask about the 
region that I focus much of my time on and in particular the 
West Bank. In August 2018, the Administration announced a 
freeze on all assistance to the Palestinians in the West Bank 
of Gaza subject to a White House review. At the end of 2019, 
Congress passed a law that I authored with Mr. Wilson to help 
remove legal barriers and restore Palestinian assistance. The 
assistance as you know provides funding to things like 
hospitals in East Jerusalem, Israeli-Palestinian co-existence 
programs, it fosters stability which benefits and strengthens 
the security of both Palestinians and Israelis, and it furthers 
the prospects for peace.
    But since the bill passed, the Administration has continued 
its effective freeze. The USAID mission to the Palestinians is 
effectively closed except for a few staff members who work on 
regional programming. In April, the U.S. provided $5 million in 
international disaster assistance funds to help meet the 
challenges of COVID-19 in the West Bank, and Congress approved 
$75 million in economic support funds in a bipartisan way 
subject to all existing laws and conditions in Fiscal Year 2020 
that the Administration has not yet spent. And on July 9th, the 
House Appropriations Committee passed a bill providing $225 
million for development and humanitarian assistance in the West 
Bank in Gaza.
    Can you tell us, Acting Administrator Barsa, what is the 
status of the Administration's review of Palestinian assistance 
and will it be completed in time to program the $225 million 
that the House recently appropriated?
    Mr. Barsa. Congressman, thank you for your question. Thank 
you for your longstanding support of USAID and thank you for 
your efforts of passing ATCA.
    So I wish I had an answer telling you that the interagency 
deliberations have completed, but discussions on how best to 
implement ATCA are still taking place at the interagency level 
and I look forward to working with you and your staff once I 
have something to report on the implementation. But it is 
currently being reviewed to find how best we can move forward.
    Mr. Deutch. I appreciate that, Acting Administrator Barsa. 
Can you provide some light into what that interagency process 
looks like? Who has reviewed, who still has not reviewed? What 
needs to happen for that to be completed?
    Mr. Barsa. Unfortunately, I do not have the details. 
Certainly, as any major policy, there are many actors who need 
to be consulted with, but these internal deliberations are 
still ongoing and really look--and I share your hope that these 
deliberations can finish shortly so we can report back to you 
on how we are moving forward.
    Mr. Deutch. I appreciate that. Are you a part of those 
deliberations?
    Mr. Barsa. My staff is, yes. Certainly.
    Mr. Deutch. Okay. So--and, presumably, they report back to 
you. Can you share with us who else is part of that process? It 
has just been ongoing for a long time and certainly it feels 
like it is being dragged along. Who else is participating in 
those? Can you tell us that?
    Mr. Barsa. I am afraid I cannot comment on those internal 
deliberations, sir. But I share your desire that the internal 
deliberations do conclude rapidly so we can move forward, which 
is the intent of Congress. I fully understand and appreciate 
that.
    Mr. Deutch. I appreciate that. Again, the goal is to 
strengthen security and stability to advance the prospects for 
peace. That is what this funding can do if we can get through 
this process once and for all. And I appreciate your commitment 
to help see it through and hopefully quickly.
    Thanks, Mr. Chairman. I yield back.
    Mr. Engel. Thank you, Mr. Deutch.
    We now go to Mr. Perry.
    Mr. Perry. Well, thank you, Mr. Chairman. And thank you, 
Mr. Barsa. I appreciate you being here.
    Administrator, you said earlier this year that the USAID 
should not be doing and does not do works untethered from 
national security, I think; is that right?
    Mr. Barsa. Yes, sir.
    Mr. Perry. Sound about familiar? Okay. Is it your 
assessment that the State and foreign appropriations bill under 
consideration pursues agenda items that engage in works 
untethered from national security policy, currently?
    Mr. Barsa. I have not seen the details of the legislation, 
but certainly it is my belief, certainly, conversations with 
other members of the interagency, we are all in agreement that 
USAID is the method of smart power or soft power. Since our 
inception in 1961, USAID has played a role in the national 
security apparatus and we are proud to do so.
    Mr. Perry. Anything in particular that you would like to 
elaborate on based on your experience that you have seen in the 
past that you would prefer not to--for us not to continue to 
engage on or expectations that you have in the conversations 
that you have had about what we will be forced to engage in 
based on the agenda in the appropriations bill as you 
understand it?
    Mr. Barsa. I am afraid I am not quite sure I understand 
your question, sir.
    Mr. Perry. So is there anything that we are going to fund 
and forced USAID to do in the past that we should not be or 
that you think that we are going to be?
    Mr. Barsa. I am not cognizant of anything.
    Mr. Perry. Okay, all right.
    How do you think that USAID can help counter the malign 
actors like Russia and China in the Arctic?
    Mr. Barsa. Well, in the Arctic that is a little bit outside 
of my zone. I certainly do not have a mission in the Arctic, so 
I would have to maybe perhaps defer----
    Mr. Perry. Should we?
    I am serious. I mean they are there and you are an 
instrument of national diplomacy and national security and you 
are not present, right, that is--but they are.
    Mr. Barsa. In terms of economic development programs, soft 
power projection, no, I am not currently in the Arctic.
    Mr. Perry. And we should not be as far as you are 
concerned?
    Mr. Barsa. Well, we are certainly looking at always 
opportunities. For example, in Greenland we are proud to be 
part of the stand-up of a mission there. We certainly are 
looking for opportunities. We have no commitment yet on 
programming in Greenland, but we are certainly looking at ways 
that we can build our expertise to help out there, if need be.
    Mr. Perry. Okay. And is China and Russia also pursuing 
opportunities in that location and others adjacent?
    Mr. Barsa. In terms of their activities in the Arctic, I 
would have to refer you to State or DoD.
    Mr. Perry. Okay. What do you think that there are some of 
the more successful tactics in pushing back against the Belt 
and Road Initiative both on the State and local level from your 
agencies or your director at standpoint?
    Mr. Barsa. I think one of the best things we could do to 
counter the Belt and Road Initiative is to communicate. As I 
said previously, one of the best things we have to counter 
China is to let people know and build awareness about our true 
and honest pathway to self-reliance. Our development models 
could not be more diverse.
    So, certainly, when I was leading the Latin American 
Caribbean Bureau, one of the things I was emphasizing was 
information sharing within the Western Hemisphere. So if there 
was an attempt by the Chinese to engage in a country, you know, 
whispering sweet nothings in their ear trying to lead them down 
the path that lead to debt diplomacy or onerous deals favoring 
Chinese companies, one of the things I was trying to emphasize 
then and I am emphasizing now, is the ability to communicate, 
to have my teams, my missions in the field, share information 
of the Chinese past practices because once other countries 
realize the pattern of behavior by the Chinese, the information 
becomes more clear.
    Then when the United States, through our programming, our 
work with the DFC, we can provide alternatives, then it is much 
easier. So the best thing we have to counter Chinese influence 
is to be honest and open and tell people what they are. Faulty 
PPE during the COVID pandemic, deals that only favor Chinese 
companies, there is a slew of evidence to show that our model 
is the preferred model.
    Mr. Perry. Do you think you have been successful? I mean 
does it work because--obviously, the communication I would 
agree is important, but, you know, money talks, right, and most 
of these places, they are very aggressively seeking financial 
assistance in that regard. And so while the rhetoric and the 
track record is certainly viable but money talks, so how 
successful have you been?
    Mr. Barsa. We have been pretty successful. So, you know, so 
money does talk, but then there is the short-term moneys like 
Okay, you can get a whole bunch of money from the Chinese right 
now, but long term to show that you are going to be strangled 
by debt for decades and you are going to lose sovereignty and 
autonomy. That is part of the thing.
    So part of what we try to do by communicating is realizing, 
hey, this short term, you know, check you are going to get from 
the Chinese, you are going to be paying that back for decades. 
You are going to lose autonomy. You are going to lose 
sovereignty. So money does talk, so part of what we try to do 
is communicate the long-term financial implications and the 
political implications.
    Mr. Engel. Thank you, Mr. Perry.
    We now go to Mr. Keating, virtually.
    Mr. Keating. Thank you, Mr. Chairman.
    Acting Administrator, you say you coordinate with the 
Department of Defense and Health and Human Services. I am in 
Armed Services as well. Were you notified in February when for 
the first time in our history a pandemic put us on a level of 
alert from the Department of Defense? Did they communicate to 
you, if you coordinated?
    Mr. Barsa. Certainly, in February I was still leading the 
Latin American Caribbean Bureau of USAID, so I am afraid I do 
not have any answers as to what may have been communicated with 
the DoD at that time. I am happy to provide an answer for the 
record.
    Mr. Keating. Thank you so much. I co-chaired the 
subcommittee, we have had hearings, on Europe and Eurasia. Our 
allies have come together in unprecedented ways in Europe under 
the COVID-19 pandemic. Don't we have a force multiplier in 
general and specifically on by working with our closest allies?
    Mr. Barsa. Well, we do, absolutely, sir.
    Mr. Keating. And do you think it undercuts everything you 
have said this morning in that case when the Global Response 
Pledge by these allies, and looking at North America alone, 
Canada were the co-chair. Didn't Mexico--Mexico participated in 
this, yet the U.S. is absent. Forty-seven countries pledging to 
this, and do not you think that undercuts our efforts? We are 
sending at best a mixed message. Can you explain why that is in 
our best interest not to work with our allies on the Global 
Response Pledge?
    Mr. Barsa. Regarding specifics of that pledge, I really 
cannot comment on that. But I can tell you is we----
    Mr. Keating. They have raised over $18 billion together on 
this, but the U.S. is absent.
    Mr. Barsa. In terms of the actual interaction, I would have 
to get back with you on details. But what I can tell you, I am 
in regular contact with my counterparts in the developed 
world--the U.K., Canada, and other contact group countries--so 
we are in coordination.
    Mr. Keating. Well, contact is one thing. If we just said--
sorry, my time is limited, Acting Administrator. But you just 
said money matters. So, you know, it is nice to be in contact. 
Look at Mexico is involved in this. Forty-seven countries are 
involved and we are absent. It just strikes me as we are making 
a statement and a contradictory one to everything you said.
    Mr. Barsa. Well, Congressman, I am afraid I am sorry. I 
believe we have some connectivity issues.
    In terms of the larger principle of coordinating with other 
donor countries, that is very important and we certainly do do 
that. I cannot really comment. I am happy to get back to you in 
terms of that specific argument. But just because we coordinate 
internationally does not mean that every venue--coordination 
happens in a variety of different ways.
    Mr. Engel. Okay. I----
    Mr. Keating. But this is such a pronounced one. It is a 
global pledge. And this is a no-brainer for the U.S. and we are 
not there, so I really think it is sending some kind of message 
to our close allies. It undercuts everything you are working 
for in USAID, and I find it just not only contradictory but 
mind boggling that we are not part of this.
    In any case, I just question too when we are pulling out of 
the WHO, does not that curb our ability to work along the same 
lines you are saying? I agree, and you will never get a better 
supporter of USAID than I am, and this is something that is 
bipartisan on the committee, but when you claim these other 
major actions being taken, you cannot see how that undercuts 
your mission?
    Mr. Barsa. Congressman, again, thank you for your long-term 
support for USAID. We are very grateful for that. Just a little 
bit of context in the World Health Organization. So last year, 
the World Health Organization received 4 percent of overall 
U.S. funding on global health issues. Ninety-six percent of our 
funds went to organizations or activities outside of the World 
Health Organization.
    So--and since the decision was made to withdraw, we have 
been actively looking for alternative partners. Our commitment 
to global health remains strong. We will not be retreating from 
any corner of the world stage when it comes to global health 
matters.
    Mr. Engel. Okay, thank you. We are going to have to leave 
it at that.
    Mr. Keating. But I have 10 seconds left. If you are looking 
for things, how about the Global Pledge, global response? It is 
there right in our face. I yield back.
    Mr. Engel. Thank you, Mr. Keating.
    Mr. Wilson.
    Mr. Wilson. Thank you very much, Chairman Eliot Engel, and 
we appreciate your strong and longtime bipartisan efforts on 
behalf of our country.
    I am also grateful, Administrator Barsa, that you are here. 
Your prior service as a congressional staffer, you worked with 
a superstar, Lincoln Diaz-Balart, so I know you are well-
trained. And, indeed, with our colleagues, Congressman Deutch 
and Keating, I have a great appreciation of what USAID has 
achieved around the world.
    And you should correctly as you have pointed out, we are 
the most generous nation in the history of the world. And in 
line with that, with the Wuhan virus global pandemic, it is 
exacerbating the existing humanitarian crises around the world 
including as the World Food Program has estimated that there 
will be an 82 percent increase in people needing food 
assistance as a result of the pandemic, how is USAID 
prioritizing food security to respond to this?
    Mr. Barsa. Thank you, Congressman. And yes, it was an honor 
to serve under Lincoln Diaz-Balart as well. I am certainly 
grateful for that in my life.
    My first full day as Acting Administrator USAID was on 
April 13th. On that day, I sent out a video to the entire USAID 
work force laying out my three priorities. Priority 1 was the 
physical and emotional well-being of staff, priority number 2 
was continuing our important operations around the world, and 
priority number 3 was thinking through the second and third 
order effects of the pandemic.
    It was clear to me as I assumed the reins of my current 
position that the secondary, tertiary effects of the pandemic, 
its effect on fragile societies, economies, and democracies 
were things that are going to be with us for a while. 
Understanding this, seeing this coming down, I set up a 
planning cell within USAID. We are calling it the Over the 
Horizon Task Force.
    Part of the goal of this task force was to break outside of 
silos and think collectively about the challenges that USAID is 
going to be faced with, not just in the next 3 months or 6 
months, the next three, six, five, 10 years down the road. So 
food insecurity is certainly one of those challenges. As we 
have seen, we have economic contraction throughout the world 
which has led to disruptions in supply chains, abilities for 
people to harvest food, get food to market, so we are very 
concerned about that.
    So our USAID partner of FEWS NET, they forecast globally a 
25 percent increase in the number of food-insecure people in 46 
vulnerable countries. So we are very much looking at again, the 
secondary and third order effects of the pandemic. This Over 
the Horizon Task Force, their work it should be completed by 
the end of the Fiscal Year and the data they provide from this 
comprehensive view is going to inform not just our 
decisionmaking at USAID, but it will inform conversations with 
OMB and the products of that analysis will be shared with you 
and your colleagues here to help inform your decisionmaking as 
well.
    Mr. Wilson. Additionally, I am really encouraged to see our 
relationship with India developing. I was honored to be with 
President Trump and Prime Minister Modi in Houston, the largest 
welcome program in the history of the United States, to welcome 
a foreign head of State. To see the relationship and the 
positive development that Prime Minister Modi has achieved, the 
world's largest democracy--America, the oldest democracy--what 
is our relationship now with India?
    Mr. Barsa. I think it is a wonderful success story because 
our relationship has evolved from a traditional donor-recipient 
relationship to a peer-to-peer relationship. We are actually, 
right now, we are proposing a U.S.-India development foundation 
where we would help India mobilize their own resources to 
address the country's most serious developmental challenges 
looking to use innovative finance tools.
    So that peer-to-peer relationship we have there is 
something we are extremely proud of and we look forward to 
working with them.
    Mr. Wilson. And then another issue that has to be addressed 
is human trafficking, and so what are you proposing to address 
this?
    Mr. Barsa. Well, again, similarly to food insecurity, I am 
concerned about human trafficking as well because certainly, 
again, during this COVID-affected world we are seeing malign 
actors not just at a State level, but criminal elements as well 
trying to take advantage of the situation. So all of our 
programming has historically had an aspect of countering human 
trafficking, trying to give light to it, trying to give 
capacity building and reporting and what not.
    So again, just like food insecurity, I am afraid on the 
human trafficking front we may be seeing increases. I do not 
have the data in front of me right now, but my gut tells me 
that we need to be more on the lookout for that and that is 
certainly the message I am putting out to our missions.
    Mr. Wilson. Well, we are grateful for your service.
    Thank you, Mr. Chairman.
    Mr. Barsa. Thank you, sir.
    Mr. Engel. Thank you, Mr. Wilson.
    We now go to Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    You know, when I think about, you know, one of the best 
investments that we have made, you know, post-World War II, it 
really has been the aid and development plan. If you think 
about the history of what we have been able to accomplish in 
the last 75 years, the Marshall Plan, probably the most 
successful aid and development plan in the history of the 
world. Rebuilding Japan, you know, stepping up and taking Korea 
from one of the poorest nations in the world 40 years ago to 
this remarkable developed economy.
    And, you know, Acting Administrator, you talked about 
PEPFAR and the millions of lives that that investment has 
saved, that is a testimony to the real impact of aid and 
development around the world, but also to the men and women 
that serve as our partnering and implementing agencies and 
NGO's and I thank them for the work that they do every day.
    We face this unprecedented, you know, challenge, probably 
the biggest global challenge since World War II in the global 
pandemic, COVID-19. And, you know, Mr. Keating alluded to this 
a little bit and Mr. Sherman also talked about the legislation 
to authorize CEPI that Congressman Yoho and myself have 
introduced, the SAFE Act, Securing America from Epidemics. We 
think this is a smart piece of legislation and authorizing and, 
you know, funding CEPI would be incredibly helpful.
    We also know the global alliance that is coming together 
with Gavi and CEPI and I appreciate your mentioning Gavi in 
your opening remarks. Part of this is the COVAX Pillar which, 
you know, is part of Gavi's initiative. When we think about it, 
there is roughly 200 COVID-19 vaccines currently under 
development around the world and that is why we need something 
like this COVAX Pillar.
    You know, we may need more than one vaccine to beat this 
virus. We do not know which country is going to develop that 
vaccine, but we do know if we all work together at a global 
level, you know, if, you know, for instance the United Kingdom 
comes up with the successful vaccine for seniors, the United 
States may come up with one that works better for kids, you 
know, we have got to all work together.
    And, you know, I think the President said it, you know, Dr. 
Fauci said it, and, you know, as a physician, I believe that 
until we find a safe and effective vaccine, manufacture not 300 
million doses for the United States but six to seven billion 
doses, potentially, for the world and then distribute and 
vaccinate the world, we will not defeat this virus.
    So, you know, I think that is why it is incredibly 
important for us to be part of this global alliance with Gavi, 
with CEPI, et cetera. And, you know, it is kind of this 
principle of safety in numbers that, you know, we do not know 
which vaccine is going to work and we can pull resources from 
around the world that does not preclude what the Administration 
is doing in terms of bilateral agreements. I believe it is 
complimentary to some of these bilateral agreements with the 
manufacturers.
    Acting Administrator Barsa, would you share that opinion 
that, you know, it is important for us to be part of this 
global vaccine coalition, and how best can we engage in this?
    Mr. Barsa. Oh, absolutely, I do agree with you. Certainly, 
we are proud of our work with Gavi. And again, for CEPI we are 
looking at ways we could potentially partner with them. But one 
of the things I think it is worth reiterating is vaccines are 
just one portion of the response. The holistic response to not 
just this pandemic but other healthcare emergencies, as again I 
mentioned before, my belief in the importance of having access 
to wash, water and sanitation services.
    So a response to a pandemic, while vaccines are important, 
the holistic approach that we have at USAID gets to the 
infrastructure helping governments, you know, respond to the 
health crises. Often times you will see a health crisis and it 
follows a political border because sometimes there are 
challenges in terms of governance and governance ability to 
provide clean water and clean services, which is why our health 
accounts being fully integrated with the best of our 
development portfolio we feel is the best way to build capacity 
for governance to strengthen their health systems and response.
    But we certainly, certainly agree with the critical role 
vaccines, you know, have, should we have a vaccine. That is a 
portion of it, access to clean water, any other things also are 
critical, so proud to have that integrated here in USAID.
    Mr. Bera. Great. And, you know, in my remaining time, you 
know, a few members who brought up the Chinese approach, you 
have brought it up, the economic coercion, et cetera, we will 
never have the resources as a single nation to necessarily 
combat the billions that China is able to do. You touched on 
multilateral coalitions of like-minded nations, and certainly 
when I have talked to the EU, our allies in Australia, et 
cetera, can you maybe give a quick example of some of the 
multilateral conversations that are taking place with regards 
to aid and development?
    Mr. Barsa. We are certainly, and similarly as I mentioned 
the DFC communications between organizations occurs at 
different levels, certainly at the staff level we are 
coordinating with the EU and others and I have participated in 
contact meetings and virtually via Zoom with counterparts in 
the U.K., Canada, and the rest of the developed world, so we 
are discussing it at different levels.
    Mr. Bera. Right. Thank you.
    Mr. Engel. Okay. We are going to have to go to Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman, and I appreciate it.
    Mr. Barsa, thank you for being here. I appreciate the 
accolades Mr. McCaul said about the DFC, but that was a team 
effort. That was this body. That was Congress working the way 
it is supposed to on a bilateral, bipartisan manner. And we 
need to continue that because we are focusing on what is best 
for America, and if we do that things work out a lot better 
instead of dividing.
    What the DFC does need and that is for all the members 
here, is it is critical that it has equity authority. We put in 
$150 million that would run that but only if it has equity 
authority. If not, we need a billion dollars for that to work 
properly. And I know you know the numbers. You have talked with 
Adam Boehler, and it is imperative that when you are talking 
with the Administration or members of the Appropriations 
Committee, your ex-boss, recommend to him and how important it 
is to have that.
    I want to move on and I want to go into some things and, 
you know, I tend to be real blunt on things and I know I offend 
some people sometimes. I know that is hard for people to 
understand, and I do not mean to, it is to call things out. And 
I heard Gregory Meeks talking about--and I have got the utmost 
respect for Gregory Meeks. The diversity, hiring, and things 
like that so that we have an array of all people involved, and 
I agree with that 100 percent.
    But do you feel or are you mandated by Congress that that 
is the role of you as the Administrator for USAID or should 
there be a separate GAO person to do that or a special 
diversity inspector general? Real quickly, if you could answer 
that.
    Mr. Barsa. Certainly. My time in and out of government for 
decades of service, certainly different, you know, every 
organization has offices of civil rights or diversity. 
Certainly, I do believe the need for having a diverse and 
inclusive work force and to make sure that everyone has 
opportunities not just in hiring, but in able to advance in 
terms of overall responsibilities and who should be in charge 
for the executive branch----
    Mr. Yoho. Okay. And his question was he wanted the numbers 
on that. We have had that mandate for a long period of time, 
right? Do you have any feeling it is not being fulfilled?
    Mr. Barsa. I am certainly cognizant that we can do better.
    Mr. Yoho. Sure.
    Mr. Barsa. So we recently had a GAO report that showed 
where USAID is doing better and I embraced the report and look 
forward to committing to improve at USAID, certainly within my 
span of control, what I can do at USAID.
    Mr. Yoho. And that is all you can do.
    Mr. Barsa. Yes, sir.
    Mr. Yoho. What I want you to do is, you have people that 
monitor that stuff that make sure that is done. Your job is to 
make the mission and get responses from the mission. As I look 
at what you do, I have this pie chart and I am sure you have 
seen it. It is from CRS July 17, 2020, and it talks about, you 
know, where the money goes in USAID. You know, 26 percent 
humanitarian, 32 percent health and population, 12 percent--but 
when it comes down to the things that really make a difference 
in a country, which is infrastructure development, and I know 
that kind of flows into DFC, there is only 3 percent that goes 
in that.
    We were talking about Ebola. I do not want to put you on 
the spot, but Ebola was discovered in the early 1970's, about 
1974. The Canadians had a vaccine that was going through phase 
1 trials, I think it was in 1976 or 1978, and it was tabled. 
Since the discovery of that virus, there has been a total of 
12,950 people die from Ebola, total.
    All right. So we knew about it, we could have done 
something, and this is why it is important that the bill Ami 
Bera and I have cosponsored for the authorization, the SAFE Act 
for CEPI is so critical that we get that through there, because 
what CEPI does, as you know, coordinates efforts between other 
nations to bring this together so that we are ahead of the next 
zoonotic, and it is important that we do that. I think your 
mission, and I do not want to tell you what your mission is, 
but you should triage any country we go into.
    And I hear this body wanting to ding a President because he 
is cutting budgets. You know, in medicine with your eyes, there 
is myopia, there is hyperopia, and then there is another one 
called fecalopia. One is nearsighted, one is farsighted, and 
the other one is self-explanatory. We as a body, if we do not 
focus 15 or 20 years from now where this country is going to 
go, you think this budget cut is bad today, look at the 
pandemic. Look at the decrease in revenues. Look at the 
unemployment. And this body wants to ding a President.
    By god, it is time that we raise up our vision and we look 
down the road of where America is going, because China is 
killing us around the--I should not say killing. They are 
beating us around the world and we can do better and we need to 
do better. And it is people like you and your organization that 
if you focus on a mission, you are going to make a significant 
impact for generations to come. And if we do not, we will be 
but a footnote in history.
    I yield back, and I am sorry I did not ask you a question.
    Mr. Engel. But we enjoyed it anyway, Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    Mr. Engel. Thank you.
    Next, we have Ms. Titus, virtually.
    Ms. Titus. Thank you, Mr. Chairman.
    And thank you to the Administrator for being here. You 
know, I so admire the work of USAID. I have encountered parts 
of, or members of your team all around the country and places I 
have visited through the House Democracy Partnership and I 
always think that you do so much with so little. And the soft 
power that you exhibit and you provide is such a big part of 
our diplomacy and that keeps us from having to use military 
means.
    But I am a little concerned with the--or not a little, I am 
a lot concerned with some of the people that you have on your 
team and you have defended them recently. And I know that 
Merritt Corrigan has been mentioned but she is not alone. And 
as somebody who has made statements that are contrary to, I 
think, what should be the goal or the mission of USAID, indeed, 
what has been stated as the mission, you have got Merritt 
Corrigan who called the U.S. a ``homo-empire with a tyrannical 
LGBT agenda'' and said that ``women's biological imperative is 
to be mothers.''
    You have Mark Lloyd and he is the new religious freedom 
advisor who has shared numerous Islamophobic posts to his 
Twitter and Facebook pages, even called Islam a ``barbaric 
cult.'' And then there is Patrina Mosley who is advisor to you 
on the Center of Excellence on Democracy, Human Rights, and 
Governance. She comes from the Family Research Council that has 
been designated a hate group that spews anti-LGBT views and 
opposes sexual and reproductive rights.
    Now USAID's role is to champion the values of respect, 
empowerment, and diversity around the globe. You know, you 
have--you want inclusion, you want equality. You have a zero-
tolerance policy against discrimination and harassment. I 
wonder how you reconcile these peoples backgrounds and agendas 
with the agenda of the Agency, how you are keeping track on 
what is going on in these various minority groups with these 
people now in charge of it, and what, how and where you are 
going to deal with that during this pandemic which often 
exacerbates the discrimination and harassment of these very 
same groups?
    Mr. Barsa. Thank you, ma'am, and thank you for your long-
term support for USAID.
    As Congressman Yoho alluded and as everyone else has 
alluded, the importance of the USAID mission is critical. We 
are mission-focused. And I can again assure you and your 
colleagues that every USAID employee regardless of hiring 
category is held to the highest legal, moral, and ethical 
standards that USAID has always had.
    Mr. Engel. Thank you.
    Ms. Titus. Well, it just seems a little contrary to what 
you are supposed to be doing to have people in these leadership 
positions to take contrary positions or have a contrary agenda. 
How are you checking on some of this policy? How are you 
monitoring maybe the impacts of COVID on the global LGBT 
community or on women's rights in some of these places where 
the virus has led to more violence perhaps or more harassment, 
more discrimination, if you have people in charge of these 
divisions who do not really have that mission in their heart 
even if that is what it says on their application form?
    Mr. Barsa. Well, certainly, as I mentioned before so early 
on it was clear to me that this pandemic was more than just a 
healthcare crisis. The effect on fragile societies, 
democracies, and economies are going to be long-term and 
serious, so when you have economic contraction in any country 
in the world, you often see things that flow from that. Some of 
that is increased levels of violence, as we spoke before in 
possibilities of human trafficking, and particularly for women 
and other minorities who are more vulnerable. Women throughout 
the world have a greater percentage of involvement in informal 
economies, for example, so when you have economic contractions, 
those informal economies are the ones that are most often 
affected first.
    So in terms of the onset of the pandemic, you know, our 
concern is that because of the secondary, tertiary effects of 
this pandemic, a lot of our work promoting inclusion and, you 
know, for women into the workplace, into the economies and 
societies, our protection of LGBTI, a lot of these things are 
put at risk. So we are increasing our surveillance on all these 
efforts and we are doing our best to rise up to the challenges 
as they present themselves.
    Mr. Engel. Thank you.
    Ms. Titus. Well, I hope that is the case. I know that 
people do not work for USAID because of the money. It is not a 
job they are going to get rich on. They do it because they 
care, that it is in their heart to go and pursue these kinds of 
programs abroad. It helps the people there and then it also 
helps us.
    It just seems to me that it would be extremely difficult to 
pursue that agenda of equality and empowerment if you do not 
have it in your heart and, apparently, in the hearts of many of 
the people you have at the top levels is a very different kind 
of feeling that is not about those things that USAID has long 
stood for and pursued.
    I will yield back, Mr. Chairman.
    Mr. Engel. Thank you, Ms. Titus.
    Mr. Mast.
    Mr. Mast. Thank you, Mr. Chairman.
    You know, most in this hearing, I do not know how many are 
still watching online, but it seems most have left. But an 
argument that I have heard over and over, bipartisanly, is one 
of the most frustrating arguments that I hear coming off of 
Capitol Hill. It is bullshit. That is the best way that I can 
say it and this is the argument. That people come into this 
room and stand on this Hill and continually say, well, what do 
I say to the service member going overseas that we could have 
prevented it by sending some U.S. taxpayer dollars somewhere 
else? That is a false narrative. It is a false argument that it 
is either one or the other, either we send something over in 
terms of U.S. aid or the U.S. service member has to go 
somewhere else and fight. That is not the truth and it should 
not be put forward on this committee. It is one of the worst 
things that I hear over and over.
    Now I do not want to diminish the work that USAID does or 
the people that go out there and do it. They do some yeoman 
work, some outstanding work in some terrible places across the 
globe. But my colleague, Mr. Sherman, he posed the question 
early on. He said, what do we say to the service member who 
comes home injured, you know, saying that we could have 
prevented this by sending that food over or this over? We 
cannot allow that argument to continue. It is not true. It is a 
false argument.
    You say to that service member, thank you for your service. 
Thank you for knowing full well the hazards of your chosen 
profession. Army, Navy, Marines, Air Force, Coast Guard, our 
men and women who put on a uniform in defense of this country, 
they know exactly what it is they are signing up for. They know 
exactly the hazards and the risks that are posed to them by the 
jobs that they choose to go out there and do, and they are 
proud of the work that they ask to go out there and do on 
behalf of every citizen of the United States of America.
    And that is my biggest ask out of this hearing for anybody 
that is still watching online that is still in their offices or 
back home that did not come here to the floor of this hearing 
room, pay attention to that. Stop making that argument. Stop 
using our service members as an excuse to send the taxpayer of 
some U.S. working citizen over to some other country.
    It is not to say that there are not good uses over there, 
but that cannot be the excuse because it is a false narrative. 
Here is a true narrative. Every time we send a dollar overseas 
somewhere else, we are taking a dollar that could have 
otherwise been spent here in the United States of America. So 
let's ask this question. Either we are in an outbreak and a 
pandemic or we are not. Either we are or we are not.
    But if we are, is there a better time to take those dollars 
that would have gone somewhere else not on U.S. soil and keep 
them here on U.S. soil helping American citizens, helping 
people in our cities, helping people in our towns, helping 
people in our areas that are affected? If not now, then when do 
we say keep those dollars here in the United States of America? 
We do not need to look at this as though if we cut 35 percent 
from foreign funding this year that that is something that goes 
on in perpetuity forever or whether it is 20 percent or 10 
percent or whatever that cut might be. Now is an important time 
to keep dollars on U.S. soil. Probably has not been a more 
important time in my generation to keep those dollars here to 
help Americans, to help people in our communities.
    And the argument is that we have to send it over to 
somebody else and then we are using our service members as this 
false narrative to say that is why it has to be done. I will 
repeat my statement in the beginning. That is bullshit. And I 
yield back.
    Mr. Engel. Mr. Connolly.
    Mr. Connolly. Thank you.
    I respect my friend from Florida's service. He talks about 
false narratives. He just presented one. The dollars going 
overseas are an opportunity cost because those are dollars not 
being invested in America and that has been proved false for 
decades. Dollars going overseas through effective programs are 
investments for America. They are investments in laying the 
groundwork for trade and investment. They are laying the 
groundwork for the creation of many kinds of new jobs for 
Americans. They are investments for expanding our economy. And 
as we are learning in COVID-19, we do not live on an island all 
alone. We are part of humanity. When something happens over 
there, it can affect us over here. Investing in health 
infrastructure globally protects Americans.
    So I reject the narrative we have just been given, and I 
hope most Americans watching will too as well. Foreign 
assistance can be, when it is effective, a very inexpensive 
investment in all Americans' future and it protects the world 
from all kinds of harm--cyber, physical, economic.
    Mr. Barsa, I did not hear your answer other than a 
reassertion that AID is committed to equity and fairness, but 
Ms. Titus ran, you know, gave you a catalog of individuals in 
your Agency who have spewed hateful statements about LGBT 
members, about those who adhere to the Islamic faith. You have 
one member on your staff from the Family Research Council that 
has been dubbed a hate group.
    Are those people's views representative of yours or of the 
current philosophy governing AID?
    Mr. Barsa. Congressman, I have to reiterate what I said 
before. While someone is working for me at USAID, regardless of 
hiring category--civil service, foreign service officer, or 
political appointee--everyone is held to the same high legal, 
moral, and ethical standards that have always existed.
    Mr. Connolly. Mr. Barsa, that does not answer the question. 
That begs the question. These are people with a history. Are 
you comfortable with that history in hiring them and having 
them on your payroll in representing the United States of 
America?
    Mr. Barsa. I have systems in place to ensure that people 
who are representing the United States as USAID employees do 
live up to the high standard.
    Mr. Connolly. So if somebody came to you with an explicitly 
hate-filled, racist rant and a history of it, posting it, 
tweeting it, going on bots and spreading it, as long as they 
said, well, that was then, this is now, I will adhere to the 
standards of AID, from your point of view that is a qualified 
employee or at least it is not a disqualified potential 
employee?
    Mr. Barsa. Throughout the appointment of political 
appointees occurs as a conversation between the White House and 
whatever agency in place. So regarding the vetting and 
placement of employees, I would have to refer you to the White 
House. What I can assure you, once they are in as an employee 
of mine at USAID, we have certain standards that we uphold 
people to.
    Mr. Connolly. Well, I have been working with AID for over 
40 years and I have never seen it peopled with individuals who 
have those kinds of records and I think it is a shameful moment 
for AID, and it is shameful if you are right that those come 
from, because they are political appointees from the White 
House. It is another blot on this White House.
    Let me ask real quickly, the proposal is you take a 50 
percent hit. Given the pandemic we are involved in and its 
ramifications in refugee camps, its ramifications in 
aggravating the HIV/AIDS crisis that is expected to grow by 10 
percent over the next 5 years, how in the world can you absorb 
a 50 percent cut and do your job in meeting those many, many 
crises around the world?
    Mr. Barsa. Thank you, Congressman. As you are aware and 
your colleagues are aware, the budget you see before you was 
certainly developed, started, the process that got us here with 
this budget started long before the outbreak of the pandemic, 
so extremely grateful for the generosity of the U.S. Congress 
with supplemental bills. I understand there is another one 
being negotiated right now. But the budget you see before you 
was developed before the pandemic.
    Mr. Connolly. So will there be a revised budget presented 
to Congress in light of the pandemic and in light of, and the 
analysis of the impact of the pandemic on your obligations and 
your opportunities to respond?
    Mr. Barsa. So certainly my understanding is negotiations on 
a potential supplemental are taking place right now between 
OMB, the White House, and the appropriators. So certainly, we 
are in contact, close contact with OMB in terms of the 
challenges we are seeing here and now. And, certainly, one of 
the things I mentioned previously in the testimony, on my first 
day I put out an announcement to my staff that one of my 
biggest concerns was the secondary and tertiary effects of the 
pandemic.
    So I have stood up an analytical cell. We are calling it 
the Over the Horizon Task Force to look outside of silos to 
look at things like insecurity, a backsliding in democracy, 
holistically, what the challenges are going to be before us not 
just in 6 months, but in 6 years on the out years. So this, the 
product of this analytical cell, this Over the Horizon Task 
Force, will go to inform conversations that we have with OMB, 
and the product of that task will be given to your colleagues 
to help inform your decisions so we can all be making data-
driven decisions when it comes to allocations----
    Mr. Connolly. When can we expect to see that?
    I know my time is up, Mr. Chairman.
    Mr. Barsa. The planning cell is due to be finished by the 
end of the fiscal year, so the end of September.
    Mr. Connolly. So we will see a revised budget by the end 
of----
    Mr. Barsa. I am not saying you will see a revised budget. 
So the analytical cell, the Over the Horizon Task Force, which 
is looking at holistically the challenges, I should have that 
information to inform conversations about budget, that 
information should be available by the end of the fiscal year.
    Mr. Connolly. Mr. Chairman, I know my time is up. I would 
just say to you as the committee of jurisdiction that is the 
originator of the authorization for AID, I would hope that we 
could get a revised budget that is much more realistic in light 
of the pandemic. My time is up and the chairman has been 
gracious. Thank you.
    Mr. Engel. Thank you, Mr. Connolly.
    Mr. Burchett.
    Mr. Burchett. Thank you, Mr. Chairman. And I too, add me to 
the list as I stated earlier. I am incredibly saddened that you 
will not be back with us. Of course, I do not know if I will be 
back with us or not either. But, regardless, you have been 
nothing but class to me and I really appreciate it. And I still 
want to take you up on that offer of hanging out with you in 
New York City 1 day. Somebody said that would be like an 
episode of Seinfeld, me and you up there, so I kind of look 
forward to that. That would be really cool.
    Thank you, sir, for being here. I am really concerned about 
China and the Belt and Road Initiative. I guess I come from it 
from a little different angle. My father fought in the Pacific, 
fought the Japanese all the way across the Pacific, and then he 
went to China after the War, a short while, and fought the 
Communists. And I learned at a very early age some of their 
goals and things that were maybe a little different than some 
of my buddies growing up did.
    And so I looked at them, I have always looked at China 
through, I guess, rose-colored glasses. Or not rose-colored 
glasses, but you know what I mean. I am just always very 
skeptical of anything they do, any initiatives. And I am 
wondering if you could explain to me a little more how we are 
responding to their Belt and Road Initiatives. And just I mean 
in a more of--I do not need the--I do not want all this 
technical garbage, I just want to know from the heart what you 
say that you all are doing.
    Mr. Barsa. Well, thank you, sir. Well, from the heart, I 
did not have any family that fought in the Pacific in World War 
II, but I had a mother who fled communism as a young girl, as a 
young lady, and so I have a visceral mistrust for communist 
systems and I know what they do and how they abuse their 
people.
    So, but coming in so you go with the data, so it is not 
just a visceral mistrust of the Chinese when you look at the 
data what they are doing across the world with debt diplomacy, 
with these one-sided deals where, you know, somebody said 
earlier money talks, but they give the promise of money in the 
short term, but with these long-ended conditions which 
basically tie up countries so they lose their autonomy, lose 
their sovereignty.
    So one of the best things we can do is to provide 
alternatives to the Chinese development model. We truly have a 
development model which is premised on what is called a journey 
to self-reliance where we help countries stand up on their own, 
to stand up and get up on the own feet. So what we are doing 
across the world, you know, it differs. What we are doing in 
Latin America, showing, you know, deals that the Chinese did in 
Jamaica, letting other people know.
    So our missions in the field have a key role in helping 
share information with countries who might be tempted to fall 
for Chinese lies. We also help with infrastructure development. 
Again, we mentioned our work with the DFC. We help find ways so 
we can invest in deepwater ports and other infrastructure in 
ways that benefit countries. Again, the best thing we can do to 
counter China is to be more open and talk about what we do.
    Mr. Burchett. Well, what is working specifically? When you 
mentioned deepwater ports, I note for the record that actually 
China is building the deepwater port in Israel, which to me is 
alarming, but that is on another subject. But I would like to 
know what is working and what can we do more of that is 
working?
    Mr. Barsa. Well, I can give you more details and anecdotes 
either for the record or following up with you later on, but an 
example right now is what we have done in the Solomon Islands. 
We supported a critical infrastructure assessment by Solomon 
Island engineers. Bina Harbour in Malaita Province is one of 
the last undeveloped deepwater ports in the South Pacific where 
China has been angling for increased influence. USAID staff led 
the infrastructure scoping mission together with several 
agencies to assess the port and complementary infrastructure.
    And because of our efforts and our openness, ultimately, 
the government turned away from Chinese support. That is one 
example. Happy to followup with you and your staff with more 
examples as well.
    Mr. Burchett. All right. Well, I appreciate that.
    And, Mr. Chairman, I believe I am just about to run out of 
time, so I will yield back, maybe to Mr. Castro. I am not sure.
    Mr. Engel. Mr. Burchett, you said such nice things about 
me, you can have all the time you want.
    Mr. Burchett. Oh, okay. Well, if you bring me one of those 
New York pizzas. I actually drove through your area this past 
week. I have never been to New York and it is not Knoxville, 
Tennessee, I will tell you that.
    Mr. Engel. Well, we want you to come back.
    Mr. Burchett. Yes, sir.
    Mr. Engel. Please do.
    Mr. Burchett. Thank you, brother.
    Mr. Engel. Thank you. Thank you.
    Mr. Castro.
    Mr. Castro. Thank you, Mr. Chairman.
    And thank you, Administrator, for being here to testify. 
And as some of these questions or part of the question may have 
been asked, I apologize. I was on the House floor.
    So as we speak about the meaning and significance of USAID 
global leadership during one of the greatest health crises the 
world has known, it is critical that USAID representatives 
carry out the true message and mission of USAID in a way that 
reflects U.S. values. However, a series of recent political 
appointments to USAID contradicts these values. At least three 
recent positions have been filled by personnel that have 
histories of Islamophobic, homophobic, and anti-immigrant 
comments. I speak specifically of Merritt Corrigan, Mark Kevin 
Lloyd, and Bethany Kozma.
    Some of these comments include, ``America is a homo-
empire,'' ruled by the ``tyrannical LGBT agenda'' and Islam a 
``barbaric cult'' and women should not hold office because they 
will ``always advocate for themselves at the expense of men, 
and revel in it.''
    So, I know you did not make these comments, but you are the 
Administrator. And can you please explain to us today why these 
people remain in their leadership positions at USAID and will 
you take action to replace them? And, if not, please explain 
how USAID will mitigate the damaging message their 
representation imparts to partner countries and agencies and to 
USAID personnel who remain under the leadership of these 
people.
    Mr. Barsa. Congressman, as the Acting Administrator of 
USAID, it is my responsibility to ensure that each and every 
employee of USAID, regardless of hiring category--civil 
servant, foreign servant, or political appointee--lives up to 
the highest legal, moral, and ethical standards that USAID has 
always held in place. So I am proud to say that the work of 
USAID overseas and here at headquarters remains unimpeded by 
this. So we are very proud of the way we are executing our 
work, and again I can assure you and your colleagues that every 
employee is held accountable.
    Mr. Castro. And I appreciate that and I do not doubt your 
sincerity in wanting it to be a place that respects all people. 
But you have some folks in key positions who have made very 
bigoted comments. Have you had a conversation with them? Have 
you admonished them, at a minimum? What action has been taken?
    Mr. Barsa. I am not going to comment on personnel 
decisions, but again I can assure you and your colleagues that 
we have the mechanisms in place for oversight and ensuring that 
every employee regardless of hiring category actually lives up 
to the standards that we have and have always had.
    Mr. Castro. I just want to convey to you what a damaging 
message it sends around the world for USAID, which is a 
development organization and it is supposed to help people in 
need, people of color, LGBTQ people, vulnerable people all 
around the world, to have folks like that in the employ of an 
agency, really, any Federal agency or government agency, but in 
the employ of what is our gem of reaching out to the world, 
USAID.
    Can you tell me what role Johnny McEntee and the 
Presidential Personnel Office, PPO, play in pushing these 
people as nominees? Did you or someone at USAID first recommend 
them or were their names initially put forward by PPO?
    Mr. Barsa. Congressman, certainly in this Administration 
and in my previous service in the Bush Administration, the 
placement of political appointees is with all Administrations, 
conversations between the White House, obviously, through the 
Office of Presidential Personnel, primarily, and the host 
executive branch agency.
    Mr. Castro. Okay. I yield back, Chair.
    Mr. Engel. Thank you very much. Mr. Espaillat?
    Mr. Espaillat. Thank you, Mr. Chairman. Thank you, 
Administrator, for being before our committee. Again, I also 
want to stress my displeasure, my objection to the precedence 
of folks that have made anti-immigrant, anti-LGBTQ, 
Islamophobic statements in an agency that is really there to 
help other countries develop, and that should be an agency that 
recognizes diversity and allows for those diverse groups within 
the agency and in our country and abroad to develop.
    And so I am concerned that these statements will hamper, if 
not break the development of good programs in countries that 
need the help, particularly during this pandemic across the 
world. And I would like to see the Administrator perhaps put 
out a statement that names these individuals and actually moves 
away from their statements in an unequivocal way to send a 
clear message that the Agency and his leadership does not stand 
for what those folks had to say. At the very least, if not look 
into their past impressive practices and see whether those 
practices will impair the Agency's ability to do the great work 
that they should be doing across the world.
    My question is regarding--I know that, Mr. Barsa, you have 
a vast experience in Latin America and the Caribbean, and we 
see how the pandemic is now spreading throughout Latin America 
and the Caribbean, Brazil, Mexico. We know that it hit early on 
Ecuador really hard, the Dominican Republic in the Caribbean 
and other island nations. And I want to know what is our plan 
with regards to the distribution of PPEs, ventilators, and 
other equipment, lifesaving equipment to those countries.
    We can whine and complain about China, but the fact of the 
matter is that they go in there and they take ownership of 
major projects. I know that we have attempted to do that, but 
we have not done it in a significant way in the region. Right 
in our backyard we are being outflanked by China because they 
are coming in maybe in a predatory way, which I disagree with, 
but they are coming and taking on major projects and major 
infrastructure projects that are critical to the development of 
those countries.
    So I want to know particularly now during this pandemic in 
the Caribbean and in Latin America, what is the plan for USAID 
to distribute PPEs, ventilators, other important equipment to 
help those nations? Mr. Barsa?
    Mr. Barsa. Thank you, Congressman. Certainly, so my time, 
you know, my experience in dealing with natural disasters at 
Department of Homeland Security, one of the lessons it is 
ingrained in me, how disasters evolve over time. So a lot of 
the assumptions and decisions that are based in one period of 
time may be revisited as information changes, so we are seeing 
just that with this pandemic. So part of the benefit of us 
having our presence in this country's missions, we are able to 
work with the host countries in seeing what the needs are as it 
develops.
    So regarding PPE, right now we are--we have a policy in 
place where our implementing partners are able to purchase PPE 
locally, but we are constantly assessing what the needs are in 
a particular country. The pandemic is hitting countries 
differently, so it would not be prudent to come up with a 
cookie cutter, one-size-fits-all to respond to the pandemic. So 
our response----
    Mr. Espaillat. Yes, but let me say, for example----
    Mr. Barsa [continuing]. In each country is tailored to the 
specific challenges. So be it----
    Mr. Espaillat. Let me say, for example----
    Mr. Barsa. Oh.
    Mr. Espaillat [continuing]. Administrator, you know, rapid 
test kits, which are needed everywhere because this is testing, 
tracing, treatment, the TTT. Rapid test kits, they are direly 
needed in many places across Latin America and the Caribbean. 
What are we doing to provide that to those countries?
    Mr. Barsa. There is a comprehensive view we have toward the 
pandemic. Understanding that test kits are part of the 
response, they may not always be available, certainly in 
amounts we like, but again in terms of the tailoring of our 
response, the response of the pandemic in Haiti is different 
than the response in Dominican Republic and different from the 
response in Colombia. So we look to see what assets are 
available and what is needed. We try to tailor response in the 
best way possible to the country's specific needs.
    Mr. Espaillat. Okay. Let me just say that it has been very 
difficult for the Latin American and the Caribbean and they are 
in dire need of test kits, of ventilators now, of course PPEs, 
and we are coming right into hurricane season. I want to know, 
Mr. Barsa, what preparations has USAID done to help Caribbean 
countries that are on the pathways of hurricanes and will be 
hit hard right in the middle of this pandemic during this 
hurricane season? Is there any preparation from USAID to assist 
these countries?
    Mr. Barsa. Again, Congressman, it is especially a great 
point of pride coming into USAID, especially from the 
Department of Homeland Security where I was so involved with so 
many disaster responses with FEMA, coming in to find a 
professional team at USAID so adept, so talented in disaster 
response.
    But similarly to FEMA, our responses right now are modified 
based on the challenges of the pandemic. So we are closely 
coordinating with FEMA in coming up with best practices for 
hurricane response particularly when it comes to putting people 
in shelters. How do you do that with safe distancing? How do 
you do that with PPE for the displaced personnel?
    So we are in constant communication with FEMA on sharing 
best practices and how to respond during the pandemic, but we 
are ready and we are braced for any hurricanes. Hopefully we 
will not have to, but we have seen, certainly, the reports that 
this may be a more active hurricane season than most, but we 
are prepared to the best way possible to respond.
    Mr. Engel. Well thank you. And then we will----
    Mr. Espaillat. I am deeply concerned.
    Mr. Barsa. Excuse me?
    Mr. Espaillat. I am deeply concerned about the hurricane 
season in the middle of the pandemic in that region.
    Mr. Barsa. We all are. Yes, sir. Thank you.
    Mr. Espaillat. Finally, the statement, on the statement, 
will you put out a statement on the appointees, their anti-
LGBTQ, anti-immigrant, and Islamophobic statements?
    Mr. Barsa. To ensure that there is no confusion, on June 
24th I put out a statement publicly. It is available on the 
website. I can give it to you and your staff, reiterating our 
values--excellence, integrity, respect, empowerment, inclusion, 
and commit to learning. So I have reiterated----
    Mr. Espaillat. Will you name the names?
    Mr. Barsa. I commit to you without naming names, because 
again all employees regardless of hiring category are held to 
the same high legal, moral, and ethical standards.
    Mr. Engel. OK. We are going to have to go on to----
    Mr. Espaillat. Thank you, Mr. Chairman. I yield back.
    Mr. Engel. Thank you, Mr. Espaillat. Mr. Guest?
    Mr. Guest. Thank you, Mr. Chairman. Acting Director Barsa, 
first, I want to thank you for taking time out of your schedule 
to be with us today. We are facing challenging times both as a 
country and challenging times across the globe. Also I want to 
thank you, you and I had the opportunity to visit by phone two 
and a half, 3 weeks ago to talk about some of our commonly 
shared interests and also to talk about some of the goals of 
USAID.
    I wanted to talk to you, and I wanted to highlight a 
program that the USAID has there and that I am proud to say is 
housed in the 3d congressional district at Mississippi State 
University, Mississippi State's innovative lab for fish, and it 
is part of your Agency's Feed the Future Program. Since 
September 2018, and in partnership with other research 
universities, Mississippi State has the opportunity to manage 
that program and support USAID's aquaculture research and 
capacity building, and actually it has been implemented in five 
developing countries. We have seen that in Bangladesh, 
Cambodia, Kenya, Nigeria, and Zambia.
    And so this is a very important project, very important 
program where your Agency is able to partner with research 
universities so that we continue to export across the globe the 
opportunities for countries to better themselves and actually 
to be able to feed their populations. So, first of all, I want 
to thank you for your support of that program.
    I want to thank Mississippi State University and my good 
friend Dr. Mark Keenum for partnering with USAID, and I want to 
thank Dr. Keenum for him being an advocate for global food 
security, as this program again will help feed more than 800 
million people across the globe who suffer from hunger.
    But I do want to ask you a question as it relates to again 
a topic that you and I had the opportunity to visit on a couple 
weeks ago, and that being the Nation of Venezuela. I know in 
your written report there on page 7, you address on page 7 and 
then page 8, you talk about the Administration's stand. You 
talk about how the Administration is working with the people of 
Venezuela to recover their country and actually to change their 
future as they seek to throw off the chains of a dictatorship 
that they are currently suffering. And so I just wanted to ask 
you for just a couple minutes if you could expand before this 
committee about things that USAID is doing specifically in 
Venezuela as we seek to help the Venezuela people again retake 
their country, and as you said, retake their future.
    Mr. Barsa. Thank you very much, Congressman. Certainly, as 
I stated before, on the personal level of my mother having to 
flee Communist Cuba at a young age and growing up with that, 
certainly have a special place in sensitivity for the suffering 
of the Venezuelan people inside and outside of Venezuela. So I 
am proud to be leading an organization that is doing so much to 
alleviate or attempting to alleviate human suffering within the 
borders of Venezuela and helping with those displaced 
Venezuelans and to host communities and countries that are 
hosting them.
    Certainly, to date, the United States has provided more 
than $856 million in humanitarian and development assistance to 
support programs inside of Venezuela and with 17 neighboring 
countries. Our programs expand democratic spaces by supporting 
civil society organizations, independent media, human rights 
organizations, and the democratically elected national assembly 
and interim government of Juan Guaido.
    Certainly, the suffering from the failed economic system of 
the regime led by Maduro, even before the pandemic, you know, 
we were seeing and hearing reports of collapsing medical 
systems, of malnutrition, and other suffering inside the border 
of Venezuela. Unfortunately, with the pandemic the situation 
has even gotten worse. Part of the tragedy before us is that 
Maduro's regime blocking our ability and other countries' 
abilities to get much-needed humanitarian assistance inside the 
borders of Venezuela.
    It is extremely frustrating knowing that we could help 
alleviate human suffering and the regime will not let us get in 
humanitarian assistance, certainly in the scale necessary.
    Mr. Guest. Well thank you. And I am out of time, so, Mr. 
Chairman, at this point I will yield back.
    Mr. Engel. Thank you very much. Ms. Wild?
    Ms. Wild. Thank you, Mr. Chairman. Mr. Barsa, I do not 
anticipate that we will agree on everything, but I think there 
are a few things we can probably agree on. I would like to move 
through them quickly. Can we agree that responding to COVID-19 
required Congress to pass emergency stimulus packages in both 
Houses to address the virus' spread in the United States?
    Mr. Barsa. I am certainly grateful for the generosity of 
the U.S. Congress as a supplemental, and we have done our best 
to put that money to good use.
    Ms. Wild. Can we also agree that we did not have sufficient 
money appropriated in Fiscal Year 2020 without those stimulus 
packages?
    Mr. Barsa. Well, we certainly, throughout the budget 
process we could not anticipate something that had not occurred 
yet.
    Ms. Wild. And can we agree that while we do not know when, 
there will probably be future pandemics?
    Mr. Barsa. Well, I guess it is a mathematical possibility, 
yes.
    Ms. Wild. Can we agree that addressing future pandemics 
will require global cooperation?
    Mr. Barsa. We could agree on that, yes.
    Ms. Wild. Great. Because eradicating a pandemic requires 
global cooperation, can you then, sitting here today as Acting 
USAID Administrator, commit to significant investments in 
global health and foreign aid in Fiscal Year 2021?
    Mr. Barsa. I can easily commit to that because that is what 
we have been doing for decades.
    Ms. Wild. Okay then. You would object to the decision to 
pull U.S. funding for the World Health Organization, and you 
would also object to the President's Fiscal Year 2021 budget 
which cuts foreign aid by 21 percent, especially since you know 
that international health organizations make up a large 
percentage of that foreign aid?
    Mr. Barsa. I think this is where we part ways. No, and 
certainly, certainly the World Health Organization, the 
President's decision to withdraw from the World Health 
Organization was based on a number of factors, and certainly 
that is certainly the prerogative, and we certainly do not 
disagree with that decision.
    As I stated before, in terms of our investments in global 
health last year, only 4 percent of the money the United States 
spent on global health, only 4 percent went to the World Health 
Organization. And since that decision has been made, we have 
been actively looking to find alternative partners to continue 
the work we have been doing throughout the world.
    Ms. Wild. So now we need to find alternative partners 
because we pulled out of the WHO. The fiscal 2021 budget 
includes a 21 percent cut in foreign aid, but a 20 percent 
increase in modernizing our nuclear arsenal. How does that 
imbalance in the President's priorities reflect our desire for 
global cooperation to deal with future pandemics?
    Mr. Barsa. Ma'am, in my decades of service in government 
and outside of government, I have never met a government agency 
that said they had enough money. Certainly, these decisions on 
budgets are difficult ones that are Solomonic. You always have 
to, hey, I have scant resources, so in terms of the allocations 
between different agencies, I would have to direct you to OMB.
    Ms. Wild. But you would agree, would you not, that the 
desire for global cooperation to deal with future pandemics is 
at odds with decreasing the budget for that kind of foreign 
aid?
    Mr. Barsa. I am certainly cognizant that the decisions on 
the overall budget are difficult ones with scant resources and 
nobody has everything they would like to have. So we stand by 
the budget before you. It is the end of a--this budget before 
you is the end product of a process that started long before 
the onset of the pandemic.
    Ms. Wild. But we have to adjust to changing circumstances.
    Let me just ask you, do you have any idea what the COVID-19 
pandemic has cost the American taxpayer?
    Mr. Barsa. No, I have not seen--I do not have any of those 
figures before me.
    Ms. Wild [presiding]. Well I would just ask that you heed 
the advice of President Bush's Deputy Assistant Administrator 
of USAID, Lester Munson, who said prevention is far cheaper 
than an ex-post cure.
    With that I yield back, Mr. Chairman. I recognize Ms. 
Wagner for 5 minutes.
    Mrs. Wagner. Thank you. And I thank the Chairman, wherever 
he may be, for organizing this hearing.
    And I thank you, Administrator Barsa, for your time this 
afternoon and for your service to our country. We look forward 
to working with you to strengthen our international development 
programming, promote support for humanitarian aid, and maintain 
robust U.S. leadership abroad.
    Today, we are seeing rivals like China and Russia exploit 
instability and crisis to undermine democratic values and 
respect for human rights. The United States' insistence on 
collaboration and self-sufficiency makes us the partner of 
choice for countries seeking a helping hand to grow their 
economies, improve health systems, fight corruption, and so on. 
We must continue to play a leading role in helping 
marginalized, poor, and vulnerable people around the world 
build a better future.
    Administrator Barsa, the Chinese Communist Party continues 
to disseminate dangerously inaccurate and misleading 
information about COVID-19 and its origins. How is USAID 
supporting programs to correct CCP falsehoods and ensure that 
our partners are basing pandemic response efforts on accurate 
information?
    Mr. Barsa. Certainly, Congresswoman, thank you for your 
question. As part of your question, the premise of your 
question is these falsehoods are being perpetrated by the 
Chinese Communist Party, so one of the best tools we have in 
this information is to counter with our own information, to 
expose the lies when they occur, to find and to highlight 
instances of faulty PPE, faulty information.
    So communication is one of our best tools. What we have 
going for us is the honest assessment of what we do, our 
developmental model, the options that we have in terms of 
helping countries on their journey to self-reliance to stand up 
on their own two feet. So we are doubling down on 
communications in the Indo-Pacific, Latin American Caribbean, 
and everywhere we are seeing the Chinese try to exert their 
malevolent influence.
    Mrs. Wagner. Thank you very much. When this global health 
request was developed we were not in the middle of a global 
pandemic. How is USAID working to prevent backsliding in our 
existing global health programs such as HIV/AIDS, tuberculosis, 
malaria, and maternal and child health?
    Mr. Barsa. Well certainly the Chinese Communist Party's 
lack of transparency at the onset of the pandemic set us back 
and made things more difficult for USAID. Again, thank you 
again to you and your colleagues for the generosity in the 
supplemental bills so far.
    When we first started our funding to respond to the 
pandemic, we initially targeted our efforts in the Indo-
Pacific, Europe, and Africa, some places that had high transit 
routes with China, which is more likely to be the start of this 
virus that started within China. Because of the lack of 
transparency we got there too late, so then we had to expand 
our work to now we are globally.
    As was mentioned before, USAID has spent decades investing 
in global health infrastructure, access to clean water, 
strengthen epidemiological systems, a whole suite of 
activities, so we are proud of the fact that these investments 
have paid off in terms of better response, and it is lamentable 
that because of the Chinese all of these systems are being 
challenged.
    Mrs. Wagner. USAID is doing great work to advance the Indo-
Pacific strategy, reassuring our allies and partners in the 
region. However, Southeast Asian countries on the front lines 
of escalating competition between the United States and China, 
I think, worry that a strategy focused on the Indo-Pacific will 
somehow diminish their role in regional affairs.
    How will USAID promote Southeast Asian countries' 
centrality in achieving a free and open Indo-Pacific?
    Mr. Engel. Mr. Barsa, could you give a rapid response? 
Because I am told we are expecting a vote on the floor very 
soon.
    Mr. Barsa. Very rapidly. We have a regional developmental 
mission in Asia, which is a regional hub for all activities in 
Southeast Asia, but the competition with China is certainly not 
limited to Southeast Asia. We are seeing, unfortunately, its 
competition worldwide. And happy to respond further with you 
with questions for the record.
    Mrs. Wagner. I appreciate that. I yield back, Mr. Chairman.
    Mr. Engel. Thank you. Mr. Phillips?
    Mr. Phillips. Thank you, Mr. Chairman. Welcome, Mr. Barsa. 
I appreciate your time today. I have to start by recounting our 
phone call on June 12th which I did enjoy, and I also shared 
some of the concerns shared by many of my colleagues about a 
number of the hires made. And rather than go over that ground 
again, I would be remiss if I did not bring it up, but I want 
to focus my attention on the Local Works program first.
    As you know, it looks to advance locally led development in 
countries all around the world, which means local people 
becoming empowered to take the lead in the development process, 
including priority setting and decisionmaking, management, and 
a whole lot more. I love that program. I believe it holds up 
the Administration's priority of achieving self-reliance. I 
just welcome a very quick synopsis of your thoughts on the 
program, Mr. Barsa.
    Mr. Barsa. I think the program is emblematic of exactly 
what we are trying to achieve, I mean self-reliance, to help 
private sectors in each country grow on their own, so to set 
the environment for the growth. I firmly believe that jobs 
aren't created by government but they are created by the 
private sector, so having these programs in place to help 
private sector and economies grow, exactly what is needed for 
long-term, sustainable economic development.
    Mr. Phillips. I could not agree more. And as you, of 
course, know, the program gets its funding from the Development 
Assistance Fund and the Economic Support Fund. You are also 
probably aware the President's budget requests ask that those 
two accounts be combined into one account, the Economic Support 
and Development Fund. Is that correct?
    Mr. Barsa. Yes.
    Mr. Phillips. Okay. So I need to know, how can we ensure 
that such a valuable program on which we both agree is still 
fully funded and an important part of our development 
assistance when the core accounts that it funds are being 
collapsed into one and, unfortunately, significantly reduced, 
how can we reconcile that?
    Mr. Barsa. Again, as I mentioned, Congressman, in my time, 
in my decades of service inside and outside of government, I 
have never been in a government agency or known of a government 
agency that had enough money as they would certainly like. 
Certainly, these are challenging times, scarce resources, so we 
stand by the budget before you. But you have my commitment that 
I and the rest of the USAID team will be doing our best with 
these precious taxpayer dollars to further these programs.
    Mr. Engel. Thank you. Thank you very much. Mr. Levin? Okay, 
we move to Ms. Spanberger.
    Ms. Spanberger. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    Thank you very much to the witness for being here. It is 
good to see you virtually like this. Thank you very much for 
testifying. USAID global health programs have been monitoring 
zoonotic diseases, so the diseases that spill over from animals 
to people, for more than a decade, and these programs have 
collectively been known as the PREDICT program. They leverage 
the expertise of health officials to respond quickly to disease 
outbreaks and prevent future outbreaks.
    This lifesaving work has helped identify hundreds of 
viruses and enhanced the resilience of healthcare systems 
around the world. This Administration decided to shutter 
PREDICT ahead of having a replacement ready to go. Personally, 
this does not make sense to me given the proven effectiveness 
of this program, especially as experts have been warning for 
years about the very real threat of a pandemic.
    Now I understand that there has been a short-term extension 
of the PREDICT program and a call for proposals for follow-on 
programs, but that is the basis of my question today. What is 
the status of extending PREDICT and/or setting up a successor 
program?
    Mr. Barsa. Thank you for your question, Congressman. 
PREDICT was always planned on having a full life cycle and an 
end date. It is not that the PREDICT program is being shut 
prematurely. This is a natural evolution of the program and our 
follow-on program, STOP Spillover, was always planned to----
    Ms. Spanberger. Mr. Barsa.
    Mr. Barsa. Yes.
    Ms. Spanberger. Mr. Barsa, how can you say it is a full 
life cycle when we always have known that the future threats of 
pandemics existed? Why would the Administration choose to end a 
program that so far had proven successful without a replacement 
ready?
    Mr. Barsa. Well, we----
    Ms. Spanberger. So what is that successor?
    Mr. Barsa. The successor is called STOP Spillover. It is 
building upon all the lessons learned from the PREDICT program 
and improving it, improving our ability to monitor zoonotic 
diseases. Instead of continuing something which may be 
outdated, again we are learning from the PREDICT programming, 
and our follow-on program which we hope to have an award by it 
in September, just a few months from now, is building upon all 
the successes of the PREDICT program to have a more robust, 
analytical----
    Ms. Spanberger. What are these successes upon which STOP 
Spillover will be building upon?
    Mr. Barsa. I do not have the exact data before me, but 
would be happy to get back to you and your staff on questions 
for the record or a separate briefing.
    Ms. Spanberger. Thank you. And what are the weaknesses of 
the PREDICT program that would require a new generation program 
and request for proposals?
    Mr. Barsa. And again, happy to provide a briefing and more 
information to you, but it is not so much that there are 
weaknesses in the program, but just a natural evolution that 
you are going to have a followup program. But again, happy to 
get back to you with more details.
    Ms. Spanberger. But Mr. Barsa, typically, within an 
evolution and evolution is continuous, here we have had a 
stoppage of a program that has been known to help our country 
and the world as it relates to the threat of zoonotic diseases 
and pandemics, and now we are in a process where we are 
receiving proposals for the next step in the middle of a 
pandemic? Do you understand the concern that many of us have 
that the timing is just inappropriate and hurting our ability 
to respond?
    Mr. Barsa. I do not know if it is hurting our ability to 
respond. Again, our response--we can go back and have a more 
detailed discussion after the hearing. But again, this is 
always planned, I mean so we are no longer receiving proposals. 
That window closed on June 1st, and we are on the cusp of 
making an award and moving forward with the follow-on program.
    Ms. Spanberger. But when the global pandemic struck, was 
there ever discussions that you were a part of or led or were 
aware of saying perhaps during a global pandemic where we are 
having massive closures, the U.S. economy is coming to a 
crushing end, and we frankly need our public health expertise, 
was there ever a discussion of maybe this is not the right time 
to pursue the shift?
    Mr. Barsa. Well but again, certainly on how looking at how 
zoonotic diseases spill over and get into the human 
populations, that is on the front end. So, certainly, with the 
response to the pandemic, I mean a response comes from, you 
know, PPE, ventilators, access to clean water.
    Ms. Spanberger. Yes.
    Mr. Barsa. So again, the PREDICT program was extended, and 
this is the natural follow-on in STOP Spillover. In terms of 
the response to the pandemic, of course, we have been 
absolutely focused on that.
    Ms. Spanberger. Okay. Well, certainly, given the death 
rates across the United States, I hope that while we are in a 
position we should focus on what has been working. We should 
focus on saving lives. And I continue to think that repeated 
attempts to cut public health programs, including those that 
catch diseases before they become the outbreaks and the 
pandemic such as COVID-19 that has now killed thousands upon 
thousands of Americans, I really cannot help but wonder about 
the role that PREDICT could have played in the lead-up to 
COVID-19 had it been able to halt the virus's ability to come 
to our country. And we are currently experiencing the costs of 
underinvesting in public health domestically and in 
coordination with our international partners.
    And Mr. Chairman, I yield back. Thank you for being here, 
Mr. Barsa.
    Mr. Engel. Thank you. The gentlewoman yields back. Let's go 
back to Mr. Phillips because I cut him off prematurely.
    Mr. Phillips. Thank you, Mr. Chairman. Mr. Barsa, we had 
been speaking about the Local Works program. I appreciate your 
support of it. I encourage incremental investment because I do 
think it is one of the most compelling programs that we offer. 
I also want to talk about kids, youth. And the House 
Appropriations Committee included my request in their recent 
report that would ``encourage the inclusive and meaningful 
participation of youth in peace building and conflict 
prevention, management, and resolution as well as post-conflict 
relief and recovery efforts.`` We can all celebrate the fact 
that kids, youth are the majority population in many conflict-
affected countries.
    So my question to you, Mr. Barsa, is how will the 
Administration, how will you prioritize the role of youth in 
conflict prevention, resolution, and recovery, because I do 
believe they have a unique role to play. I would love your 
comments on that.
    Mr. Barsa. Well thank you, Congressman. I think the old 
saying holds true, an ounce of prevention is worth a pound of 
cure. So investments----
    Mr. Phillips. It is.
    Mr. Barsa. So investments in education and making sure 
youth have access to education not just helps with economic 
integration and a country's economic development, but also in a 
societal and political integration as well. And this is 
especially true in women by the way. We are always pushing for 
that.
    So as part of our reorganization, we recently stood up the 
Bureau for Conflict, Prevention, and Stabilization to do just 
that, to put a focus to our efforts on investments to prevent 
conflict on the front end. So just like all the other things we 
have mentioned that are affected by the pandemic, I am also 
concerned about the challenges in education systems throughout 
the world and people not having access to education, so we are 
very attuned to the challenges and we are looking at our 
program to see what we can do in any number of countries to 
ensure that youth do have access to education because the 
consequences of youth in different countries not getting a full 
education are certainly negative and we would like to avoid 
that.
    Mr. Phillips. I appreciate it. I also want to talk about 
the GFA, Global Fragility Act. This week I passed an amendment 
in the NDAA that will expand upon the GFA to require that USAID 
ensures that the State Department's atrocity prevention 
framework is incorporated into the Country Development 
Cooperation Strategy in countries at risk of mass atrocities.
    So my question to you, Mr. Barsa, is, does USAID have 
sufficient staffing with the right skills and training to 
successfully implement the GFA? And if not, what do you need?
    Mr. Barsa. Congressman, first I want to thank you and your 
colleagues for your prescience in working on the Global 
Fragility Act. Certainly, again, an ounce of prevention is 
worth a pound of cure. So in these fragile societies what the 
Global Fragility Act has done, what you did is you put a focus. 
So there are so many activities that USAID has involved with 
over the decades which go to support the concept and challenges 
of fragility.
    In terms of the actual implementation of the act, as you 
know, certainly the act has tasked not just USAID but other 
elements of the interagency, so we are currently in discussions 
on the technical details of the implementation of the Global 
Fragility Act, and once those discussions are done I look 
forward to following up with you and your staff on the 
technical details of how we are going to implement the Global 
Fragility Act. But basically what we are doing is we are 
focusing many longstanding USAID activities to rise to the 
challenge of fragility.
    Mr. Engel. Thank you.
    Mr. Phillips. All right.
    Mr. Engel. We move on to----
    Mr. Phillips. Thank you, Mr. Barsa. Thank you, Mr. 
Chairman. I yield back.
    Mr. Engel. Thank you. The gentleman yields. Ms. Houlahan?
    Ms. Houlahan [continuing]. Today. It was a pleasure to talk 
to you on the phone recently as well, and my questions will 
basically surround the same conversation that we had on the 
phone. I will take you up on your word that an ounce of 
prevention is worth a pound of cure, and when we are talking 
specifically about the UNFPA, United--U.N. Population Fund--
there was $32.5 million that were appropriated for the Agency 
that I understand now will be transferred over to the 
International Organizations Bureau to USAID.
    And while I think it is absolutely clear that no one can 
replace the work of UNFPA in places like Yemen and Venezuela 
and even in New York City, I want to make sure that we are 
going to continue to support the programs with the same mission 
that the funds were originally intended for. So I have not yet 
seen where Fiscal Year 2019 and Fiscal Year 2020 moneys 
appropriated for UNFPA will be reprogrammed. To where has the 
funding been relocated and specifically what programming is 
being supported, sir?
    Mr. Barsa. So in terms of the details of how each, every 
dollar of those reprogrammed went to, I do not have that 
information before me, but happy to get back to you on 
questions for the record or a separate briefing for you and 
your staff.
    Ms. Houlahan. I would really appreciate that. And I would 
also like to know, has the full scope and scale of the previous 
UNFPA activities continued with any new partners that you are 
aware of? Specifically, do the beneficiaries support the UNFPA 
mission in what was originally intended, the essence of the 
intent of that money?
    Mr. Barsa. Again, ma'am, to get to that level of 
granularity, I am afraid I have to give you a separate briefing 
or a question for the record. But I am absolutely happy to do 
so.
    Ms. Houlahan. And I would very much appreciate that too. 
What I would also like to know here in this audience is: can 
you ensure us that any transferred funds that will be going to 
our existing international family planning will be going to 
international family planning and evidence-based reproductive 
health programs that support access to contraceptives, ending 
maternal death, ending child marriage, gender-based violence, 
and female genitalia mutilation?
    Mr. Barsa. Absolutely, yes.
    Ms. Houlahan. So you can guarantee us that that will be the 
case that those moneys will go toward that?
    Mr. Barsa. Yes.
    Ms. Houlahan. That is excellent. And thank you for that 
assurance because I would definitely like to emphasize that 
there are many organizations out there, of course, UNFPA is an 
irreplaceable partner, but we really need to make sure that we 
are clearly directing those resources toward their original 
intent. And thanks for that and I would love to followup with 
you on a subsequent conversation about that.
    My next question has to do with access to comprehensive 
health services. And I think that we can both agree that 
gender-based violence is a critical impediment to personal 
safety, to the economic empowerment, and to the long-term well-
being of women globally. Is that something we can agree on?
    Mr. Barsa. Yes. Of course, yes.
    Ms. Houlahan. In 2016, the global cost of violence against 
women was estimated to be 1.5 trillion, or basically 2 percent 
of the global GDP, or roughly the size of the Canadian economy. 
It is sometimes referred to as the shadow pandemic. So clearly 
Congress has made addressing GBV globally a priority by 
appropriating at least $150 million annually. The 
Administration did not request any specific funding for this 
issue. Can you explain to me why not?
    Mr. Barsa. Certainly, our efforts to address gender-based 
violence, USAID efforts, have reached approximately 8 million 
people in Fiscal Year 2019; 62 USAID operating units reported 
activities to provide critical support and care to prevent and 
respond to gender-based violence and child early and forced 
marriages.
    We know in conflict settings, and right now we are 
especially concerned in this COVID-affected world, that there 
is a potential rise in gender-based violence, so as part of all 
of our programs and all of our missions being on the lookout, 
looking for ways to prevent gender-based violence is part of 
our programming.
    Ms. Houlahan. So why has not the Administration 
specifically carved out that in their resources and what they 
have asked for?
    Mr. Barsa. And again, as mentioned before, the budget you 
see before you is a product of tradeoffs and difficult 
decisions in terms of resource allocations.
    Ms. Houlahan. So I understand that budgets are a process of 
tradeoffs, but they are also a reflection of our values. And it 
seems to me not only should our values be in combating gender-
based violence, but the economics of it would compel us to be 
putting resources toward that because an ounce of prevention is 
worth a pound of cure.
    And I appreciate your time and I look forward to followup 
conversations with you. Thank you, sir.
    Mr. Barsa. Thank you.
    Mr. Engel. Thank you. We will now go to Mr. Malinowski.
    Mr. Malinowski. Thank you so much, Mr. Chairman. Thank you, 
Mr. Barsa. Would you agree that when an effective vaccine or 
vaccines for COVID-19 are developed that it will be in the U.S. 
national interest for everybody in the world to have access to 
that vaccine, or at least in every affected country?
    Mr. Barsa. Well certainly pandemics know no borders, so 
certainly it would be beneficial to have wide distribution of a 
vaccine, of course.
    Mr. Malinowski. Okay. Beneficial to us, not just from a 
humanitarian point of view.
    Mr. Barsa. Pandemics respect no borders.
    Mr. Malinowski. Okay. And so should the United States do 
our share with our allies and partners to ensure that everybody 
who needs a vaccine gets one, given that many of the affected 
countries are developing countries that may not be able to do 
it on their own?
    Mr. Barsa. Well again, as mentioned before, we are 
certainly proud of the work we have done with vaccines for any 
number of diseases.
    Mr. Malinowski. I am not asking what we have done. Should 
the United States play its role with our partners, with our 
allies, our fair share in ensuring that a vaccine is 
distributed to everybody who needs one?
    Mr. Barsa. I believe we should. Yes.
    Mr. Malinowski. Okay. What have we pledged thus far to that 
global effort? I mean as you know a number of our allies and 
partners have made specific pledges to aid in the distribution 
and development of a vaccine.
    Mr. Barsa. I do not have any fixed pledges to report to you 
today, but we are concerned. We are waiting on certainly the 
production of a vaccine. And we will certainly----
    Mr. Malinowski. So the answer is nothing. We have pledged 
nothing.
    Mr. Barsa. I have nothing to----
    Mr. Malinowski. Well you would know if we had pledged 
something, presumably.
    Mr. Barsa. No, sir. Yes.
    Mr. Malinowski. So the answer is nothing.
    Mr. Barsa. Yes.
    Mr. Malinowski. I think Canada has pledged about $800 
million. I think Norway has pledged, if I recall correctly, $1 
billion. You know, you were asked about U.S. attendance at 
conferences and you said we have other ways of coordinating 
with our allies and that is fine. But at the end of the day, as 
we were discussing, money talks and so far we have not made 
such a pledge.
    This is something I think we are committed to in a 
bipartisan basis here. As you know, the Senate is now working 
up their answer to our opening bid on the next coronavirus 
relief package. I have spoken to a number of Republican 
senators about this, and my understanding from press reporting 
is that the Republican proposal in the Senate put forward a 
very generous number for U.S. contributions to eventual 
distribution of a global vaccine, but that the White House is 
pushing back on this.
    So again, I want to press you. What is the Administration 
policy? Does the Administration believe that we should do our 
share as a large and wealthy country to fund the distribution 
of a global vaccine?
    Mr. Barsa. I am afraid I cannot opine on negotiations 
between the White House, OMB, and the appropriators.
    Mr. Malinowski. But you know what the U.S. policy is, the 
Administration policy?
    Mr. Barsa. I know that the United States people, the U.S. 
Government has been, we are the most generous people in the 
history of the world and our investments in global health 
infrastructure are unprecedented and----
    Mr. Malinowski. I know, but that is a talking point. And 
what we are trying----
    Mr. Barsa. It is also reality.
    Mr. Malinowski. I understand. Look, I have sat where you 
sit, sir, and I have been through the murder boards and read 
the briefing books, and I know there are all kinds of ways they 
teach you how not to answer the question. But what we need here 
is a clear commitment from the Administration. You have it from 
Democrats. You have it from Republicans, including strong 
supporters of President Trump on Capitol Hill. We want to do 
our share and right now my sense is that we are getting 
resistance. Not from USAID, but from the White House to 
ensuring that we do that share.
    When a vaccine is developed that is a critical moment, and 
there will be a tendency by some to say let's keep it. Let's 
not give it to anybody else. We did it. We developed it. We 
invented it. You know that sentiment is out there. So I want to 
hear, and if I cannot hear it from you, I hope you go back and 
urge the Secretary and others to be very clear about this, the 
United States will do its share.
    Mr. Barsa. It is not a talking point, but it is a sincere 
belief. It is a sincere statement of fact that I am proud in 
the men and women and the investments USAID has made in global 
health infrastructure, our ability to respond to pandemics.
    Mr. Malinowski. Has made, past tense. We are interested in 
what happens----
    Mr. Barsa. Well and we are still responding. Our generosity 
is ongoing and continuing.
    Mr. Malinowski. Okay. And we have pledged nothing. Thank 
you. I yield back.
    Mr. Engel. Okay. Mr. Trone.
    Mr. Trone. Thank you, Mr. Chairman. Thank you for holding 
this hearing today. Mr. Barsa, we have all seen reports of the 
authoritarian leaders taking advantage of the pandemic to 
increase their crackdowns on free speech and independent press. 
Why are outlets like--this is why outlets like Radio Free 
Europe are so critical, but the Trump Administration has 
slashed the budget to the Agency for global media, and this 
undermines our efforts to help our allies and our own self-
interests to slow the spread of these far-right, anti-
democratic ideologies that threaten our basic freedoms.
    How would USAID, how are you going to continue to support 
these independent media in countries like Hungary, Poland, 
Turkey, if you are deprioritizing tools that are proven to be 
effective for decades?
    Mr. Barsa. Well certainly one of the things I am very proud 
of at USAID is our efforts on countering malign, criminal 
influence, for example, which basically rests on four pillars 
to focus on democracy and rule of law, independent media, 
energy independence, and economic diversification. Through our 
efforts, we have been able to turn the tide on Russian 
disinformation, for example.
    For example, in Georgia, in April, Facebook credited 
USAID's local implementing partner for the removal of over 500 
pages, 100 Facebook accounts, and 120 groups which were created 
maliciously by the Kremlin to, you know, to sow false 
narratives. In Serbia, we built partners' skills in fact-
checking and debunking false narratives to expose Kremlin 
information, and I keep going on with other examples.
    So we are very proud of our efforts to bring light to 
efforts not just by the Kremlin, but by the Chinese Communist 
Party as well.
    Mr. Trone. Well if we do not use things like Radio Free 
Europe, we cannot get out the true facts and we do not have to 
spend all of our time debunking the bad facts.
    Let's talk a second about highlighting the importance of 
countering malign Kremlin influences throughout Europe and 
Eurasia, yet your budget request seriously reduces the capacity 
building and anti-corruption programs. So how is USAID going to 
counter these Russian maligned influences, and how would 
programming be impacted if these reductions are all enacted?
    Mr. Barsa. Certainly Congressman, as stated before, the 
budget you see before you is the product of a long process of 
difficult decisions about how to allocate scarce resources. So 
certainly our work in fighting corruption, not just in Europe 
but throughout the world, remains a critical part of all of our 
programming.
    Mr. Trone. Syria, Iraq, enormous amount of disruption in 
infrastructure and population displacement. The Trump 
Administration is trying to encourage increased foreign 
governments to put investment in these areas to help them 
recover. But the question is: will the U.S. continue to invest 
more, and what foreign donors have actually stepped up and been 
forthcoming?
    Mr. Barsa. In terms of actual dollar figures by other 
donors, I have to get back with you the questions for the 
record or later on to brief you as to who has contributed what. 
But certainly, just most recently on June 30th, Ambassador 
Jeffrey, the Special Representative for Syria, announced nearly 
$700 million in U.S. Government humanitarian funding. And 
certainly this included $368 million in USAID funding for food 
and non-food aid inside Syria to meet the needs of the region.
    But in terms of actual dollar amounts contributed by other 
partners, I will have to get back with you and your staff later 
on for that--with that information.
    Mr. Trone. What other partners have contributed? Forget the 
dollar amounts.
    Mr. Barsa. I am sorry, sir. You broke up. Could you repeat 
the question?
    Mr. Trone. Name what other partners have contributed and 
skip the dollar amounts.
    Mr. Barsa. I would have to get back with you. I think I 
know the answer here, but I do not have those in front of me. I 
certainly do not want to give you incorrect information, but I 
would like to followup with you on that one.
    Mr. Trone. That would be great. And what risks do you see 
of underinvesting? What is going to happen if we do not get 
this right?
    Mr. Barsa. Well the short answer is human suffering is 
going to continue. So that is why we are so desirous in Syria 
and certainly inside Venezuela, when we see human suffering we 
certainly hope for our ability to get humanitarian assistance 
into needy populations in a free, equitable manner. So that is 
why, you know, we value every taxpayer dollar appropriated to 
us, and we want to ensure that it is spent wisely getting to 
the people in need. And we are proud to say we have those 
structures in place to do just that.
    Mr. Trone. Well thank you, Mr. Barsa. I yield back.
    Mr. Engel. The gentleman yields back. As you can hear, 
there is a vote going on, on the floor. We want to thank all 
the members for their questions.
    Mr. Barsa, thank you for being here today. And the 
Committee on Foreign Affairs stands adjourned.
    [Whereupon, at 12:25 p.m., the committee was adjourned.]

                                APPENDIX

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

         STATEMENT FOR THE RECORD FROM REPRESENTATIVE CONNOLLY

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
